<html>
<title> - CYBERSECURITY: RISKS TO THE FINANCIAL SERVICES INDUSTRY AND ITS PREPAREDNESS</title>
<body><pre>[Senate Hearing 115-307]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 115-307


    CYBERSECURITY: RISKS TO THE FINANCIAL SERVICES INDUSTRY AND ITS 
                              PREPAREDNESS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

        EXAMINING CYBERSECURITY ISSUES IN THE FINANCIAL SERVICES
 SECTOR, FOCUSING ON THE RISKS TO THE FINANCIAL SERVICES INDUSTRY FROM 
   CYBERATTACKS AND CYBER THREATS AND THE READINESS OF THE FINANCIAL 
                    SERVICES INDUSTRY TO COMBAT THEM

                               __________

                              MAY 24, 2018

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs
                                
                                
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                


                Available at: http: //www.govinfo.gov /
                
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-197 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="285847684b5d5b5c404d4458064b474506">[email&#160;protected]</a>    

            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                      MIKE CRAPO, Idaho, Chairman

RICHARD C. SHELBY, Alabama           SHERROD BROWN, Ohio
BOB CORKER, Tennessee                JACK REED, Rhode Island
PATRICK J. TOOMEY, Pennsylvania      ROBERT MENENDEZ, New Jersey
DEAN HELLER, Nevada                  JON TESTER, Montana
TIM SCOTT, South Carolina            MARK R. WARNER, Virginia
BEN SASSE, Nebraska                  ELIZABETH WARREN, Massachusetts
TOM COTTON, Arkansas                 HEIDI HEITKAMP, North Dakota
MIKE ROUNDS, South Dakota            JOE DONNELLY, Indiana
DAVID PERDUE, Georgia                BRIAN SCHATZ, Hawaii
THOM TILLIS, North Carolina          CHRIS VAN HOLLEN, Maryland
JOHN KENNEDY, Louisiana              CATHERINE CORTEZ MASTO, Nevada
JERRY MORAN, Kansas                  DOUG JONES, Alabama

                     Gregg Richard, Staff Director

                 Mark Powden, Democratic Staff Director

                      Elad Roisman, Chief Counsel

                      Travis Hill, Senior Counsel

                 Elisha Tuku, Democratic Chief Counsel

            Laura Swanson, Democratic Deputy Staff Director

           Corey Frayer, Democratic Professional Staff Member

                       Dawn Ratliff, Chief Clerk

                      Cameron Ricker, Deputy Clerk

                     James Guiliano, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)


                            C O N T E N T S

                              ----------                              

                         THURSDAY, MAY 24, 2018

                                                                   Page

Opening statement of Chairman Crapo..............................     1
    Prepared statement...........................................    26

Opening statements, comments, or prepared statements of:
    Senator Brown................................................     2

                               WITNESSES

Bill Nelson, President and CEO, the Financial Services 
  Information Sharing and Analysis Center (FS-ISAC)..............     5
    Prepared statement...........................................    26
    Responses to written questions of:
        Senate Banking Committee.................................    85
Michael Daniel, President and CEO, Cyber Threat Alliance.........     7
    Prepared statement...........................................    35
    Responses to written questions of:
        Senator Reed.............................................    90
        Senator Warner...........................................    91
        Senator Cortez Masto.....................................    91
Phil Venables, Chief Operational Risk Officer, Goldman Sachs.....     8
    Prepared statement...........................................    46
    Responses to written questions of:
        Senator Warner...........................................    94
        Senator Cortez Masto.....................................    95
Carl A. Kessler III, Senior Vice President and Chief Information 
  Officer, First Mutual Holding Company..........................    10
    Prepared statement...........................................    47
Bob Sydow, Principal and Americas Cybersecurity Leader, Ernst & 
  Young LLP......................................................    12
    Prepared statement...........................................
    Responses to written questions of:
        Senator Warner...........................................   101
        Senator Cortez Masto.....................................   106

              Additional Material Supplied for the Record

Letter submitted by the Credit Union National Association........   114

                                 (iii)

 
    CYBERSECURITY: RISKS TO THE FINANCIAL SERVICES INDUSTRY AND ITS 
                              PREPAREDNESS

                              ----------                              


                         THURSDAY, MAY 24, 2018

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 9:28 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Mike Crapo, Chairman of the 
Committee, presiding.

            OPENING STATEMENT OF CHAIRMAN MIKE CRAPO

    Chairman Crapo. The Committee will come to order.
    Today we will hear about cybersecurity in the financial 
sector. Today's witnesses come from a wide range of 
organizations and can provide us with insight on the threats 
faced by and the preparedness of the financial sector when it 
comes to cyber.
    Four years ago, this Committee held a similar hearing where 
I noted that a recently aired ``60 Minutes'' segment called 
2014 ``the year of the data breach.''
    Given the various data breaches over the past few years, 
most notably the Equifax data breach last year, I am not sure 
that 2014 still holds that title.
    As our society increases its reliance on technology and 
becomes accustomed to immediate access to information and 
services from companies, the risk of--and the potential damage 
caused by--data breaches continually increases.
    Americans are becoming more aware of the amount of 
information, including personally identifiable information, or 
PII, that is stored by companies, and there is a growing 
realization that this information can be stolen or misused.
    The collection of PII by both the Government and private 
companies is something that has long troubled me. Many question 
how both use the data collected and how such data is secured 
and protected.
    The collection and use of PII will be a major focus of the 
Banking Committee moving forward, as there is broad-based 
interest on this Committee in examining it.
    Today we will hear from our witnesses regarding 
cybersecurity and about the risks to the financial services 
industry and its preparedness.
    We have heard from many regulators before this Committee 
about their focus on and oversight of cybersecurity and how it 
is critical to the operations of companies and our markets. 
This is especially true for companies in the financial services 
space.
    The financial sector itself is a main target for hackers 
because, as many have said, ``that's where the money is.''
    Banks are under constant attack every day. Because of this, 
they and other firms in the financial services industry have 
devoted substantial resources to protecting information 
systems, and the industry is widely viewed as one of the most 
advanced sectors in terms of prioritizing cybersecurity.
    Today I hope to learn more about: the risks to the 
financial services industry from cyber attacks and cyber 
threats; the work being done in the financial services industry 
to increase cyber readiness, combat cyber attacks, and increase 
resiliency; and what more needs to be done by the private 
sector and Government to help protect companies' and consumers' 
information.
    It is critical that personal data is protected, consumer 
impact in the event of a data breach is minimized, customers' 
ability to access credit and their assets is not harmed, and 
the financial sector is resilient enough to continue to 
function despite a cyber breach at a financial sector company.
    I will welcome our witnesses again but welcome. And, 
Senator Brown, you may proceed.

               STATEMENT OF SENATOR SHERROD BROWN

    Senator Brown. Thank you very much, Mr. Chairman. Thank you 
for holding this hearing today.
    This Committee last considered cyber preparedness of 
financial institutions 3 \1/2\ years ago. Since then, 
sophisticated, targeted cyber attacks have become all too 
frequent, exposing the personal information of millions of 
Americans, costing our economy hundreds of millions of dollars.
    Cutting corners on cybersecurity risks real harm to real 
people's lives. Each data breach or each cyber heist that makes 
the news seems larger than the one before, and after a while, 
we barely raise an eyebrow. But think about a family trying to 
get a mortgage who finds out that their credit score has been 
wrecked through no--they do not have knowledge about it and it 
has been wrecked through no fault of their own. It is clear 
these risks to the financial system and Americans' personal 
data are growing.
    Today's hearing will give us a window into how the 
financial services sector works on cyber preparedness, fighting 
cyber attacks, promoting cooperation among private and public 
entities.
    Financial institutions must work diligently not just to 
maintain standards set by industry and Government, but also to 
improve protections for financial infrastructure and customer 
data whenever possible. As risks increase and threats become 
more advanced, financial institutions and Government agencies 
must facilitate and encourage information sharing.
    Banks certainly have the resources to invest in protecting 
their customers. The FDIC reported on Tuesday that banks are 
doing better than ever. Including the benefit from the tax 
bill, net bank income increased 27 percent compared to 2017. 
That has been consistent, in most cases double-digit profit 
increase over most of the last 8 years. Even without the tax 
benefits Republicans in Congress bestowed on the largest 
corporations and the wealthy, bank profits would have been up 
12.6 percent from a year ago.
    Record profits for banks should not just mean that top 
executives get bigger bonuses and the largest shareholders 
benefit from stock buybacks and dividends.
    Banks should be investing in their businesses, whether it 
is cybersecurity or a living wage for their employees. I 
remember the average teller in this country makes $26,000 a 
year. Rather than lobbying to be let off the hook from rule 
after rule, the Nation's largest banks should focus their time 
and effort on securing financial infrastructure against attacks 
and protecting sensitive consumer data.
    Law enforcement also plays a critical role in assessing and 
warning about cyber threats, and its ability to share sensitive 
cyber threat information more quickly will help combat those 
threats. I know there has been good work done in this area. We 
need to build on it. We cannot let up now. And that is why I am 
glad the five of you are here.
    A secure and resilient financial system is the foundation 
of commerce and our economy. There is always the risk that 
cyber thieves will try to steal money and consumers' personal 
data or that a hostile country will seek to disrupt our 
financial system. We cannot risk undermining faith in that 
system.
    It would take just one cyber attack to undermine our trust 
in financial institutions. Once that happens, it will take more 
than hearings, legislation, or policy changes to restore that 
trust.
    I look forward to hearing all of you address these issues. 
Thank you all for joining us.
    Chairman Crapo. Thank you, Senator Brown.
    We will now move to our witnesses and their testimony. We 
have with us five excellent witnesses today, and I will briefly 
introduce Mr. Nelson, Mr. Daniel, and Mr. Venables, and Senator 
Brown will then introduce our two witnesses from Ohio.
    Senator Brown. Thank you.
    Chairman Crapo. Mr. Bill Nelson is president and CEO of the 
Financial Services Information Sharing and Analysis Center, 
also known as FS-ISAC, and has held such a position since 2006. 
FS-ISAC is a nonprofit association dedicated to protecting the 
global financial services industry from physical and cyber 
attacks. Its members include organizations from banks, credit 
unions, securities firms, and insurance companies.
    Mr. Michael Daniel is the president and CEO at the Cyber 
Threat Alliance. CTA was formed in 2014 through an informal 
agreement to share intelligence among Fortinet, McAfee, Palo 
Alto Networks, and Symantec. Prior to joining the CTA, Mr. 
Daniel served from June 2012 to January 2017 as Special 
Assistant to President Obama and Cybersecurity Coordinator on 
the National Security Council staff.
    Mr. Phil Venables is the managing director and head of 
operational risk management and analysis at Goldman Sachs. Mr. 
Venables has been at Goldman Sachs 18 years. His first 16 years 
he served as Goldman's chief information security officer, or 
CISO, before moving into a wider role in Goldman's Risk 
Division. Mr. Venables serves on the executive committee of the 
U.S. Financial Services Sector Coordinating Council for 
Critical Infrastructure Protection and is co-chair of the Board 
of Sheltered Harbor.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    It is my pleasure to introduce two Ohioans on this panel. I 
do not get this honor that often, so thank you.
    Carl A. Kessler III is a senior vice president, chief 
information officer of First Mutual Holding Company, 25 years 
of experience in technology, 15 in banking at super-regional 
and community banks, of which Ohio has a number of them. While 
working in banking, Mr. Kessler has tackled a broad range of 
cybersecurity issues, from building banking websites to 
designing security architecture. He began his career at the 
Department of Defense after graduating from the Honors College 
at Ohio University. Welcome. And Tom Fraser, the bank's CEO, 
and Mr. Kessler both do a really important and crucial job 
serving the banks' customers in northeast Ohio. The bank is 
located in Lakewood, Ohio, west of Cleveland. Welcome, Mr. 
Kessler.
    Bob Sydow is a principal at Ernst & Young and Americas 
cybersecurity leader. He has more than 30 years of experience 
working with Fortune 500 companies and all aspects of 
information security, data protection and privacy, identity and 
access management, cyber threat management, and cyber 
economics. I met with Mr. Sydow this week. I was impressed with 
his expertise in all things cybersecurity, and I was also 
impressed with his knowledge of all things Cincinnati Reds. 
While I am a Cleveland Indians fan in the other end of the 
State, I urge any of you that are baseball fans in this 
audience to at least one time go to a Cincinnati Reds opening 
day. It is a celebration of America's first baseball team. 
Cincinnati is a baseball town, and I have been to opening day 
half a dozen times there, and it is something, if you love 
baseball, you want to experience. But Mr. Sydow has promised if 
any of you will go, he will give you tickets and give you a 
tour----
    [Laughter.]
    Senator Brown.----and tell you all things Cincinnati Reds 
history.
    So thanks to the both of you for joining us.
    Chairman Crapo. Thank you, Senator Brown, and I think I 
will try to take you up on your suggestion. I will not take the 
tickets, however.
    Gentlemen, we appreciate you being with us today and 
bringing your expertise to assist us with this issue. We will 
proceed in the order that you were introduced. I remind you 
that we ask you to keep your oral remarks to 5 minutes. You 
have a little clock there that is supposed to help you. And 
this is one of those days where we are jammed for time, hence 
the reason we moved the time of the hearing up. Both Senator 
Brown and I are a little jammed for time. So I am reminding our 
Senators as well that we want you to keep yourselves to your 5-
minute limit, if you can do so. Actually, we will try to help 
you do so.
    Mr. Nelson, you may proceed.

  STATEMENT OF BILL NELSON, PRESIDENT AND CEO, THE FINANCIAL 
   SERVICES INFORMATION SHARING AND ANALYSIS CENTER (FS-ISAC)

    Mr. Nelson. Thank you. Thank you, Chairman Crapo and 
Ranking Member Brown and other Members of the Committee, for 
inviting me to speak today. I do not have one of the timers, so 
cut me off if I go over 5 minutes.
    Chairman Crapo. Well, if you hear this sound [banging 
gavel] that means the bell rang.
    Mr. Nelson. I will discuss the topics that you mentioned
already: cyber risks, efforts by the financial services 
industry to increase cyber readiness, and what more needs to be 
done by the
private sector and Government to help protect companies' and 
consumers' information.
    As you mentioned in the intro, I have been CEO of FS-ISAC 
since 2006 and have seen some major changes occur in the last 
12 years. I think the biggest change has been the growing 
sophistication and volume of cyber threats and attacks.
    In response, the financial services sector has made 
significant investment in cyber defenses and has come together 
as a community to back major resiliency efforts. I have also 
witnessed an evolution of the public-private partnership. Today 
the financial services industry receives tremendous benefit 
from that partnership that enables cyber threat intelligence to 
flow to the sector and improve detection, prevention, and 
response to cyber threats and other risks.
    By way of background, you mentioned that FS-ISAC is a 
private sector, nonprofit organization. We have been around 
since 1999, and our formal mission is provided in the written 
testimony. If I could sum it up in maybe just a few words, it 
is really to protect the financial services sector.
    There is an inherent strength in sharing derived from three 
fundamental pillars: one, the public-private partnerships; two, 
cross-sector sharing; and, most importantly, three, member-to-
member sharing. We often think of FS-ISAC as a virtual 
neighborhood watch where financial institutions really keep an 
eye out for each other. One company's reported incident can 
help the entire sector respond and prevent the same attack from 
affecting their firm.
    Driven by the direction of our membership, FS-ISAC performs 
a number of key critical functions: we share threat and 
vulnerability information; we conduct coordinated exercises, 
often with our Government partners; we manage rapid response 
communications for both cyber and physical events; we produce 
education and training programs; and we foster collaboration 
with other key sectors and with Government agencies.
    We have grown rapidly in recent years. When I started, we 
had a little bit under 200 members. We have about 7,000 
companies that belong to FS-ISAC today. These include, like you 
mentioned earlier, commercial banks, credit unions, but also 
stock exchanges, clearinghouses, brokerages, investment firms, 
insurance companies, payment processors, and financial services 
trade associations. We are headquartered in Reston, Virginia, 
and have expanded globally with members in 44 countries today, 
and we have a team of over 100 staff and consultants in eight 
countries across five continents. That is a long way from when 
I started in 2006 when we had me and about five outsourced 
people. That was it. So we have grown really in response to the 
threat.
    Each day, cyber risks evolve as attacks increase. We have 
invested a significant amount of money, but they continue, 
these cyber threat actors, to target the financial services 
sector. Their motivation varies. It can be corporate espionage. 
It can be stealing money. It can be launching disruptive 
attacks like we saw in 2012 and 2013 against about 50 financial 
institutions, and even destructive attacks.
    As they grow in their sophistication targeting, the primary 
evidence of these attacks are the types of attacks leveraged 
against financial institutions to steal money and disrupt. They 
include things like phishing; targeted email spear-phishing 
campaigns
resulting in account takeover where they steal your money; also 
business email compromise which involves the compromise of 
legitimate business email accounts to initiate unauthorized 
wire
transfers or ACH; ransomware attacks, we all know about that; 
distributed denial of service attacks, which can impede access 
to online services; and data breaches, which steal sensitive 
information.
    I think the sector has really come together in a proactive 
manner. As a result, we have greatly expanded our products and 
services to our members. We have devoted a large number of 
resources to really tailor them to smaller financial 
institutions and their service providers. At the same time, we 
have enhanced our analysis of threats and best practices for 
defending against those threats.
    We have expanded our exercise program, which includes an 
annual cyber attack against payment systems, or CAPS exercises, 
with thousands of participants last year, and have introduced 
the new cyber range program that allows members to have hands 
on keyboards, to gain experience to respond effectively to a 
real-live cyber attack. And we have improved our capability to 
respond to major cyber and physical incidents, including 
emergency member calls. The last couple, we have had over 3,000 
members participate on. And we have expanded our in-person 
online member training programs.
    In addition to these efforts, we have also created two new 
subsidiaries--one to add an extra layer of security for 
consumer accounts, and the other to reduce systemic risk. At 
the request of leaders in the industry, we established the 
Sheltered Harbor in 2016 to enhance the industry's resiliency 
capabilities in the event of a major disaster or event.
    In conclusion----
    [Laughter.]
    Mr. Nelson. I provide more details in my written statement, 
but let me highlight four recommendations. We are encouraging 
regulators to harmonize their cyber regulatory requirements, 
leverage authorities in the Cyber Information Sharing Act, 
CISA, and the USA PATRIOT Act to implement more effective 
information-sharing programs; number three, establish cyber 
deterrence and response capabilities, encourage adoption of 
global cyber norms; and four, support efforts to develop a 
technology-capable workforce.
    Thank you very much. Thank you for the opportunity.
    Chairman Crapo. Thank you for your flexibility. And we do 
read your written testimony very carefully. I want you to know 
that.
    Senator--I mean Mr. Daniel. I just about made you one of 
us. That probably was a demotion.
    [Laughter.]

 STATEMENT OF MICHAEL DANIEL, PRESIDENT AND CEO, CYBER THREAT 
                            ALLIANCE

    Mr. Daniel. Well, thank you very much. Thank you, Mr. 
Chairman, Ranking Member, other distinguished Members of the 
Committee. Thank you for the opportunity to come and speak with 
you this morning.
    What I think I can do is provide sort of a strategic 
overview of the threat context in which this industry is 
operating and then talk a little bit about what we have done to 
try to tackle the problem and where we need to go going 
forward.
    When you look out at the landscape, because we live in a 
digital age, almost everything in our country is now heavily 
dependent upon the internet and cyberspace. And so, therefore, 
these threats affect all of us. But the threat is actually 
continuing to get worse, and it is getting worse in four ways.
    One is it is becoming broader. As we create this Internet 
of Things, we keep hooking more and more of stuff up to the 
internet. And it is not just laptops and desktops anymore. It 
is your watch, your phone, your car, your light bulbs, a whole 
plethora of different devices. The threat is becoming more 
prevalent as more and more malicious actors, whether they are 
nation states or criminals, realize that they can try to 
achieve their goals by operating through cyberspace. The threat 
is becoming more dangerous as those actors are willing to 
undertake more and more destructive activities. If we had been 
having this hearing back when Bill first joined the FS-ISAC, we 
would have been talking a lot about website defacement. None of 
us talk about that anymore because that is the least of our 
problems.
    And then, finally, the threat is becoming more disruptive. 
As I mentioned, with our digital dependence, as it increases, 
things that used to be merely irritating now pose, you know, 
organizational existential questions. You know, I often say 
that when I first started working for the Federal Government in 
1995, if the network went down, we just did something else for 
the day. You know, we worked on our noninternet-connected 
computers or we held meetings over the phone or did other 
things. And now if the network goes down, you pretty much send 
your workforce home because you cannot do anything.
    Now, for the financial services industry in particular, you 
know, they also face challenges related to both criminal and 
nation-state-enabled cyber theft, and those are a real problem 
for the industry. But it is also becoming clearer that the 
threat of disruption, those nation states that target the 
industry for the purpose of inflicting economic harm on the 
United States and the West is becoming a more prevalent threat 
as well.
    Now, one thing I want to hit on is actually there is a real 
question in here about exactly why cybersecurity is a hard 
problem, because at the surface of it, it looks like it should 
not be. After all, it is just computers and code. And so there 
is a question of why we simply cannot create a technical fix to 
this problem. But the
answer is because cybersecurity is not just a technical 
problem. While there are technical issues about it, it is also 
an economics issue, a business operations issue. It is a human 
psychology issue. And it is a national security issue. And it 
is all of those things rolled into one.
    Cyberspace also plays by different rules than the physical 
world, so a lot of our analogies for how to do things and how 
to actually go about securing things in the physical world do 
not work in an environment that is a notable network that 
operates at light speed, where the concepts of time and 
distance and proximity all have different meanings and borders 
than they do in the physical world.
    And then, finally, this is a new environment. Stretching it 
to the maximum, cyberspace is barely older than me. And we have 
not had time yet to develop the body of law and policy and 
practice that we need to operate effectively in cyberspace.
    Now, we have certainly made a lot of progress over the last 
20 years, including particularly within the financial services 
industry. I certainly agree with the characterization of the 
industry as one of the most, if not the most advanced sector in 
the country. And the level of investment from the FS-ISAC to 
the Systemic Analysis and Resilience Center, Sheltered Harbor, 
the investments that this industry has made are tremendous. But 
I do think that there is more that we can do on both the 
industry side and on the Government side. I think in particular 
on the Government side there is a real need to look at how the 
Government can focus on its comparative advantage where it has 
capabilities that the private sector does not and leverage the 
comparative advantage of the private sector where the private 
sector has capabilities that the Government does not have.
    The Government can also focus on incentivizing good 
cybersecurity behavior, and we could talk about that in the 
Q&A.
    And then, last, on the industry side, I think continuing to 
invest and having the industry figure out how the larger 
institutions can help the smaller institutions that do not have 
the same level of capability also make progress in their 
cybersecurity is a very necessary step.
    So, with that, I will conclude my opening remarks. Thank 
you very much.
     Chairman Crapo. Thank you, Mr. Daniel.
    Mr. Venables.

  STATEMENT OF PHIL VENABLES, CHIEF OPERATIONAL RISK OFFICER, 
                         GOLDMAN SACHS

    Mr. Venables. Thank you. Chairman Crapo, Ranking Member 
Brown, and other Members of the Committee, thank you for this 
opportunity to testify at this hearing today. As we all know, 
this is an increasingly important topic.
    A number of factors are contributing to increased risk 
across the financial services sector, and this is primarily due 
in many respects to the digitalization of finance and the 
globally interconnected nature of the system. The same trends 
that are increasing benefits of the global financial system are 
also bringing on these new and enhanced risks.
    On threats, as Bill and Mike have described, we are seeing 
increases threats from organized criminal groups and nation 
states for various different motivations around the world, and 
it is also worth reminding ourselves that we are not just 
facing cybersecurity risks. We are also seeing many risks in 
relation to how technology has managed and provided risks from 
resilience issues and software errors. And so while 
cybersecurity is tremendously important, it is also significant 
and also to focus on technology risk in general.
    It is critical to have shared defenses across the sector so 
that all institutions, large and small, can learn from each 
other's best practices and so that threat information can be 
shared among firms, reducing the likelihood that attackers can 
execute their strategies without response.
    We have a long history of robust information-sharing 
processes, and as Bill describes, the FS-ISAC is acknowledged 
as a preeminent example of such capability. We have established 
tighter coupling between the major firms using the Financial 
Systemic Analysis and Resilience Center, the so-called FS-ARC. 
And also under the Department of Treasury's leadership with 
various different initiatives through the Sector Coordinating 
Council, we have also increased sector-wide resilience, 
including formalized sector-wide drills and exercises that have 
spawned other initiatives, like Sheltered Harbor--an initiative 
to encourage and demand institutions maintain immutable data 
vaults to resist cyber attack.
    Turning our attention to regulators and regulation, we 
benefit from a number of strong regulators across the financial 
sector that stipulate cybersecurity and other controls that 
reduce the risk of major incidents. This includes regular 
examinations and reviews. We continue to support the need for 
harmonization across regulation, domestically and globally, and 
we commend the efforts to date from the industry and regulators 
and Government on the use of the NIST Cybersecurity Framework.
    Notwithstanding the strong relationship between the public 
and private sectors, we continue to focus on improvements here, 
particularly around metrics to make sure that we are able to 
quantify the value and timeliness of the information flow 
between the public sector and private sector.
    Despite all this coordination and response to cybersecurity 
threats, risk still remains, and we need to continue to be 
vigilant to adjust the defenses of individual firms and the 
sector as a whole by making sure we adopt innovative approaches 
to protecting customer data as well as making sure that we are 
protecting the services that we offer. The goal here is to 
reduce single points of failure and also single focal points of 
attack.
    Finally, I would recommend all organizations that operate 
critical public services or protect customer data adopt strong 
defenses and security programs based on a number of different 
approaches, specifically:
    Integrate cybersecurity into the fabric of organizations, 
from business risk management processes, strategy and product 
development to the foundation of how the technology is built 
and operated.
    Second, improving capabilities amongst people, processes, 
and technology. There needs to be continued emphasis on the 
embedding of controls into critical technology products and 
services. We need secure products, not just security products. 
We should also recognize that cybersecurity risk mitigation is 
not solely the responsibility of designated cybersecurity 
professionals but is, perhaps more importantly, in the domain 
of leadership, risk managers, and engineers at all levels of 
organizations. In other words, we need more security-minded 
people, not just security people.
    And, finally, design for defensibility. Our goal should be 
to design our technology and information processing 
environments to be more inherently defendable and resilient in 
the face of attacks, and we have to keep examining our global 
supply chains to look for security issues and avoid excess 
concentration risk in services and geographies.
    Thank you, Mr. Chairman, for allowing me to provide this 
input, and I look forward to taking questions as we go through 
the panel. Thank you.
     Chairman Crapo. Thank you.
    Mr. Kessler.

  STATEMENT OF CARL A. KESSLER III, SENIOR VICE PRESIDENT AND 
    CHIEF INFORMATION OFFICER, FIRST MUTUAL HOLDING COMPANY

    Mr. Kessler. Chairman Crapo, Ranking Member Brown, and 
distinguished Members of the Committee, thank you for the 
opportunity to testify before you today.
    I will share the unique perspective of a front-line 
practitioner on the practical pros and cons of cybersecurity 
regulation, information sharing, and community bank 
collaboration.
    Two key regulatory changes have positively improved the 
approach of community banks in managing cybersecurity risks. In 
the wake of the Dodd-Frank Act reforms, supervision of our 
affiliate banks migrated from the OTS to the OCC. In the last 
few years, FFIEC established the Cybersecurity Assessment Tool, 
or CAT. These changes have led to an ongoing dialogue with 
regulators. The CAT provides a standard way to assess risk and 
provides guidelines for what controls might be appropriate.
    Highly trained examiners are critical. Because of the 
changing nature of the threat environment, an exam is never a 
static, check-the-box activity. It is always a dynamic 
conversation. My recommendation to this Committee is to ensure 
the consistent availability of highly trained IT examiners 
whose skills are in high demand in both the public and private 
sectors.
    Another consideration for this Committee is to ensure that 
similar cybersecurity rigor exists among nonbank financial 
services companies. How do we safeguard customer data at 
companies that are outside the oversight of prudential 
regulators?
    Community banks rely heavily on a network of third-party 
service providers. While we always maintain primary 
accountability for safeguarding customers' information, a 
significant portion of the risk lies with core processors, 
payments networks, and large providers.
    This concentration of financial services into a few 
providers
creates both advantages and challenges. One challenge is that 
the current system relies on a high degree of blind trust in 
the service provider with limited transparency. We depend on 
our regulator to
examine our service providers and identify patterns of 
compromise and ensure remediation. At the same time, law and 
regulation
require us to monitor the effectiveness of our service 
provider's controls. This opaque approach runs contrary to best 
practices in vendor management.
    One solution might be to create a cybersecurity scorecard 
aggregating data from many sources including regulatory 
reviews. This scorecard would impact vendor selections and 
create positive momentum toward control improvements.
    It is most critical that we have timely access to 
information sharing of active threats through public and 
private partnerships. The key for banks is that a comprehensive 
ecosystem of financial service providers shares threat 
information in real time to an entity qualified to analyze, 
verify, and then communicate it back digitally to our bank 
where we can use it to adapt our controls. We need our third-
party providers to share cyber threat information quickly with 
industry partners like FS-ISAC, the goal being to respond in 
seconds or minutes rather than days or weeks.
    Timely information sharing is foundational to the 
industry's ability to combat a cyber threat. We cannot act on 
information we do not have. Important questions remain 
regarding if, when, and how businesses can share threats. There 
is still a great reluctance to share information. Liability, 
contract, and privacy concerns are the most often cited 
reasons. While customer notification and privacy laws are 
clearly needed, simplification and modernization of the 
relevant laws and regulations should enable information 
sharing. This is a good time to re-examine the effectiveness of 
cybersecurity law. Certainly, any solution must guard against 
shifting the liability to consumers from those who failed to 
protect their data.
    Our mutual holding company is faced every day with the 
challenges required to implement an information security 
program. We deliver that same program to our affiliate banks in 
a manner that they otherwise could not afford, design, or 
staff. In our three affiliations, we have preserved a local 
banking presence, improved security controls, and done so at a 
minimal marginal cost. This has proven a game changer for our 
affiliates.
    In summary, the best way to protect consumers is to 
increase transparency and information sharing within the 
financial services cybersecurity ecosystem. This Committee 
could help move this forward by encouraging the transparency of 
the performance of third-party service providers. You can also 
help by passing legislation which further encourages 
information sharing so that active threats are identified and 
mitigated in minutes.
    Thank you for the opportunity to testify before you today. 
I stand ready to work with you in any way that I can to protect 
consumers and our financial system, and I look forward to 
answering your questions.
    Chairman Crapo. Thank you, Mr. Kessler.
    Mr. Sydow.

  STATEMENT OF BOB SYDOW, PRINCIPAL AND AMERICAS CYBERSECURITY 
                   LEADER, ERNST & YOUNG LLP

    Mr. Sydow. Thank you, Chairman Crapo, and thank you, 
Ranking Member Brown, for that kind introduction. The Reds need 
help.
    My name is Bob Sydow. I am Ernst & Young's (EY) Americas 
cybersecurity practice leader. I refer the Committee to my 
written testimony on details on my remarks.
    Cyber attacks are on the rise. No organization, large or 
small, public or private, is immune to the threat. Our clients 
face three significant challenges: emerging interconnected 
technologies drive fundamental transformations and create 
complex third-party ecosystems; the volume, velocity, and 
precision of attacks; and the shortage of cybersecurity 
resources and skilled professionals.
    EY works with clients across all sectors, and many should 
be commended for their efforts. In my experience, financial 
services, especially the largest banks, are considered best in 
class, not only in terms of organization and investment but 
also for leading engagement with stakeholders across the 
ecosystem.
    Large banks are accustomed to higher levels of regulatory 
scrutiny, and their third-party risk management programs tend 
to be more mature and robust. But challenges remain. Today 
financial institutions deal with third-, fourth-, and fifth-
party risk. In addition to vendor risk most institutions 
struggle to secure resources and talent. Experienced cyber 
professionals are in high demand. Often small firms turn to 
third-party providers to meet those needs.
    There is no one-size-fits-all solution, so I will focus on 
three areas where EY believes risks can be mitigated: corporate 
governance and risk management, the AICPA Cyber Reporting 
Framework, and policy solutions.
    Ultimately, the board is responsible for governing a 
company's risk appetite and providing credible challenge to 
management. By doing so, boards help protect investors and 
enhance the company's value and performance. Banks use a three-
lines-of-defense risk management model. The larger ones are 
adopting this model for cyber. EY considers this a best 
practice. Increasingly, regulators, investors, and others want 
financial institutions to build cyber resiliency strategies 
into the three lines.
    Another challenge is understanding and communicating about 
a cyber program's efficacy. While NIST and others have 
developed implementation guidance, there has been no means to 
evaluate and report on program effectiveness. This distinction 
is subtle but significant.
    In response, the American Institute of CPAs recently 
developed the Cyber Risk Management Evaluation and Reporting 
Framework. This is voluntary and can provide stakeholders with 
reasonable assurance that the identification, mitigation, and 
response controls are in place.
    No framework can guarantee against a breach, but the AICPA 
cyber risk model can offer an independent, validated 
understanding of a company's systems, processes, and controls. 
Unfortunately, there is no single legislative, regulatory, or 
market solution
that can guarantee against a cyber event. Bad actors are not
constrained by regulatory, liability, or jurisdictional issues 
let alone ethics.
    Policymakers and the business community should work 
together to foster collaboration and improve intelligence 
sharing. We need flexible and harmonized policy solutions that 
recognize the dynamic challenge of cybersecurity and clarify 
conflicting directives.
    We need to balance the need for compliance with a need to 
manage cybersecurity and protect consumers. EY believes 
companies that engage in good-faith efforts, establish 
enterprise cyber risk management frameworks, and adopt best 
practices should be recognized, especially relative to 
liability and penalty measures.
    Finally, EY encourages Congress to support modernization of 
Government's cyber posture, to focus on developing solutions to 
address cyber workforce shortages, and to educate the public 
and help the country as a whole improve its cyber hygiene. EY's 
purpose is to build a better working world, and so I thank you 
for providing the firm an opportunity to share our views and 
expertise. I welcome your questions.
    Chairman Crapo. Thank you very much, Mr. Sydow.
    In the interest of time, I am going to go last, if there is 
time before I have to leave, and so I will turn first to 
Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Mr. Kessler, do you think the current baseline for 
protection of consumer information is adequate? Or would you 
like additional control over how your personal information is 
stored or used by financial institutions?
    Mr. Kessler. Well, I think we are all interested in knowing 
what is happening with our personal information. I am 
personally assured when I am able to receive real-time alerts 
of when that information is changed, when it is affected, and 
changes to my credit reports. I think that there are obviously 
opportunities to continue to share more information with our 
consumers in that respect.
    Senator Brown. And when there is a breach involving 
personally identifiable information, I assume you think it is 
important for a financial institution to quickly notify 
customers, giving them the ability to protect themselves by 
freezing or monitoring their credit file?
    Mr. Kessler. Certainly, we like to take--as a mutually 
owned community bank, we like to take all the necessary actions 
to protect our customers in a timely way. So, yes, we find it 
very important to notify the customers as soon as is practical 
after working with the necessary law enforcement officers.
    Senator Brown. Thank you.
    Mr. Sydow, many community bank IT services are provided 
through large third-party service providers. Talk about the 
economies of scale when it comes to cybersecurity that 
community banks benefit from by using large service providers.
    Mr. Sydow. Well, it is a matter of resource, Senator Brown. 
The larger organizations can afford the staff and recruit and 
retain the kind of talent that you need in a cybersecurity 
department and the focus that they can provide. They have the 
resources to buy the technologies and install and implement 
those that a smaller organization would not have. So if a 
smaller bank were to use those services, they have access to 
cybersecurity kind of resources that they would not have if 
they tried to do that in-house or on their own.
    Senator Brown. OK. Thank you. President Obama in 2009 
established the position of White House Cybersecurity 
Coordinator to work straight cybersecurity efforts across all 
Government agencies. President Trump recently eliminated that 
position. That is the position Mr. Daniel held in the Obama 
administration. Will that help or harm Government's efforts to 
make the country and especially the financial system more 
resilient and stronger against cybersecurity threats? Are you 
concerned about that?
    Mr. Daniel. Well, yes, I am Senator. I think the reason 
that position was created was because, as a very new policy 
area, we need to drive better coordination across all the 
different parts of the Federal Government that have a role in 
cybersecurity, and so I believe that having a strong leadership 
at the White House level is a real necessity right now.
    Senator Brown. Do you know why he eliminated it?
    Mr. Daniel. I do not. I presume that they were looking for 
ways to streamline the bureaucracy on the NSC staff. At least 
that was the statement that was given. But I am not sure of the 
reasoning behind it.
    Senator Brown. OK. Thank you.
    Mr. Sydow, you talked about workplace shortages in my 
office this week and then in your testimony, and this is not 
really a question, but as evidenced by the look of this panel 
and, frankly, the look of most of us up here, as evidenced by 
the fact that, of the 30 largest banks in this country, there 
is a female CEO only at KeyBank in Cleveland. We do not really 
do a very good job in financial services and technology at 
bringing a more diverse workforce, one of the reasons, clearly, 
that we all face--that you and we face workforce shortages and 
attracting people, as Mr. Sydow pointed out. So I hope that we 
all pay more attention to STEM programs for women and for 
people of color. We will bring more qualified people in, give 
more opportunities, and, frankly, have more diverse 
perspectives in the way we all do our jobs.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Mr. Daniel, I would like to more or less just visit with 
you for a little while, and I would love input from the others 
as well. I have the opportunity to serve as the Committee 
Chairman on a Subcommittee for the Department of Defense's 
cybersecurity. I am just curious. Along the same lines as 
Senator Brown has indicated, that there had just been a change 
in which we do not have anybody at the White House who is 
directly responsible for the cyber defense, I am just curious. 
You have had the opportunity to work at the Federal level. Now 
you are part of a nonprofit organization that represents a 
number of different financial institutions.
    In February of last year, the Department of Defense's 
Science Advisory Board put out both a classified and an 
unclassified version, not very long, 26, 27 pages, explaining 
the need for our country to have not only a strong--the ability 
to attribute where attacks from outside the country were coming 
into the country, but it also identified that we would not have 
the capability to keep people out of our critical 
infrastructure if they wanted to get in, both organized crime 
organizations but also other near peer competitors, nation 
states.
    Along with that, it indicated that for the next 10 years we 
would be at risk and that one of the best approaches we could 
do would be to make it very expensive for those organizations 
to get into our financial institutions--in fact, any of our 
critical infrastructure. But it also made the point that we had 
to have a very strong offensive capability as a deterrent, 
similar to a nuclear deterrent today.
    I would like to know, right now at the financial 
institutions level--and you work with a number of them--do you 
believe that we have a model in place today on a voluntary 
basis, which I am in favor of, but one in which we are at the 
same level across the different institutions that can then be 
protected almost in an umbrella-like position by Homeland 
Security capabilities, Department of Treasury capabilities, and 
then we will talk about DoD capabilities. But just your 
thoughts on that and how they connect with the Federal 
responsibilities.
    Mr. Daniel. Sure. So I think you are very right that if you 
look at our level of digital dependence, as I talked about, and 
particularly in the financial services industry, clearly cyber 
threats are a major problem that this industry has to be 
dealing with. I think when you look at the nature of the 
threats that they face, it is going to--anybody that tells you 
they can give you, as several of the panel members said, a 
guarantee that you will not have any cyber incidents at all, 
they are selling you snake oil. And what you can do, however, 
is manage that risk and drive that risk lower, and that 
requires cooperation between both the Government and the 
private sector in some ways that we are not completely used to 
in the physical world. And I think it requires bringing all of 
the capabilities to bear both from the private sector side and 
enabling good information sharing and coordination and 
collaboration on the private sector side, but also within the 
Government, between, as you mentioned, the Department of 
Treasury, Homeland Security, Defense, State, Justice, and in 
between the Government and the private sector.
    Senator Rounds. Let me bring this--because we are all going 
to be time limited today. Do you think the American public 
today thinks that with regard to their financial services, 
their assets, their checking accounts and so forth, do you 
think they believe that the Federal Government has a role to 
play in protecting those assets?
    Mr. Daniel. I think they do.
    Senator Rounds. Would it be fair to say that today Homeland 
Security has the ability to try and notify you and Homeland 
Security has the ability to try and assist in the defense? But 
with regard to going outside, if the attribution indicates that 
it is coming from outside, is it fair to say that Homeland 
Security does not have the ability to respond offensively to 
stop those attacks before they actually occur?
    Mr. Daniel. Well, I think that the ability to--it is a 
shared responsibility on the defensive side, and that is why I 
say that you have got to do that good integration across all of 
the different parts of the Federal Government that do have both 
the network defense mission and the offensive mission.
    Senator Rounds. Let me put it this way: If there had been 
an attack on an institution here and it was an attack--we have 
a bombing and so forth, everybody would assume that the Federal 
Government has the first role in protecting against that. Would 
it be fair to also say that when it comes to cyber attacks, we 
have a challenge in that we do not have the policy in place 
today to provide for that direct protection up front?
    Mr. Daniel. Well, I actually do not believe that it is 
possible for the Federal Government to provide that same kind 
of protection in cyberspace that it does in the physical world 
due to the way that cyberspace works. And I believe that it 
will always be a shared mission between the private sector and 
the Federal Government to achieve the level of protection that 
we need.
    Senator Rounds. Thank you.
    Mr. Chairman, my time has expired, but I think this is a 
very good meeting to start out that discussion. Thank you, sir.
    Chairman Crapo. Thank you.
    Senator Reed.
    Senator Reed. Thank you very much. Gentlemen, thank you for 
your excellent testimony. Also, let me as the ranking Democrat 
thank and commend Senator Rounds for his leadership on the 
Cybersecurity Subcommittee. Thanks, Mike.
    Senator Crapo, Senator Brown, thank you. This is a very 
important issue. One reason I think it is very important is 
that I have legislation, S. 536, the Cybersecurity Disclosure 
Act, bipartisan legislation with Senator McCain, Senator 
Collins, and Senator Warner, and it would simply require 
disclosure by public companies, which is the usual tradition of 
public companies, of whether they have a director who is a 
cyber expert or they have some other arrangement. We do not 
mandate what they do, but I think it is essential to have 
public companies particularly tell their shareholders and the 
markets what they are doing at the highest level when it comes 
to this issue of cybersecurity. And you have described all the 
different ramifications throughout your testimony.
    But I would like to just focus for a moment, if I could, 
with Mr. Daniel, and that is, Chairman Clayton was here a few 
weeks ago, Mr. Daniel, and he said:

        I think cybersecurity is an area where I have said previously I 
        do not think there is enough disclosure in terms of whether 
        there is oversight at the board level that has a comprehension 
        for cybersecurity issues. That is something that investors 
        should know, whether companies have thought about the issues, 
        whether there is a particular expertise on the board or not, 
        that is something companies should know. It is a very important 
        part of operating a significant company. Any significant 
        company has cyber risk issues.

And my question would be: Do you agree with that sentiment?
    Mr. Daniel. Yes, I do. I think that the nature of 
cybersecurity right now is that we actually do need more 
disclosure. We have an information asymmetry, if you will, and 
it is hard for markets to operate efficiently when there is 
information asymmetry. So steps that the Government can take to 
enable more investors, the public, and others to have more 
information about how companies are tackling the cybersecurity 
problem I think is generally a good thing.
    Senator Reed. And just a quick follow-up. You have noticed, 
I would guess--I do not want to put words in your mouth--
variable sort of attention to these details. There are some 
companies that have very sophisticated individuals on the Board 
or arrangements. There are other companies that are essentially 
free riders. Is that true?
    Mr. Daniel. Well, I think that this is an area where 
companies are still learning how to address the issue, and some 
industries and companies have been way more forward-leaning 
than others. So I do think it is true that the capability 
across the board varies a lot.
    Senator Reed. Thank you.
    Mr. Sydow, again, thank you for your testimony. I was very 
struck with the comment:

        At Ernst & Young, we believe that boards must be 
        educated about cybersecurity so that they are able to 
        make appropriate decisions anchored in sound logic and 
        data. By doing so, boards will not only be protecting 
        shareholders, but they will be enhancing the company's 
        value.
    And, interestingly enough, the Vice Chair of the Fed, Mr. 
Quarles, stated:

        The idea of having a board member with cyber expertise, when I 
        have been on boards that had a board member with that kind of 
        expertise, that is an extremely useful--that has not just been 
        a nice thing to have. It has been extremely useful.

    So, again, the basic theme, does this make sense to have 
this disclosure provision so that boards have some expertise?
    Mr. Sydow. Senator Reed, thank you for the question. I have 
been in this role about 5 years, and I have gone to a lot of 
Board meetings, and I think there has been increasing 
importance placed on cybersecurity in those discussions, and 
often there is a challenge between the translation between the 
technical world and the business world at those meetings. And I 
think that is something that--a gap that needs to be closed. 
However, in my remarks I also said to you that there is a 
shortage of qualified cybersecurity professionals, especially 
the people that can make that translation. So as long as you 
have flexibility in that and allow the boards ways to get 
access to those kind of individuals, I think that makes sense.
    Senator Reed. Indeed, this legislation is not prescriptive. 
It is simply, ``Tell us what you are doing. In fact, tell your 
shareholders and the markets what you are doing,'' which I 
think makes a great deal of sense.
    One of the reasons, among many, as Ranking Member of the 
Armed Services Committee, we had the general officer in charge 
of TRANSCOM, all of our transportation assets, and in an 
international crisis, he would be responsible to move people by 
aircraft, by sea, all of our military personnel to get the 
mission done. And he just said, volunteered that he talked to 
cybersecurity officers and companies that have no dialogue with 
their directors. And I can assure you that if something 
happens, probably the first strike will not be a kinetic strike 
against the military. It will be a cyber strike against this 
infrastructure of movement, logistics, et cetera. So this is 
another reason why I think we really do have to have some 
legislation like we are proposing.
    So thank you all very much, gentlemen. Thank you, Mr. 
Chairman.
    Senator Brown. [Presiding.] Senator Heitkamp.
    Senator Heitkamp. Thank you, Ranking Member Brown, and 
thank you for having this hearing. I think it is critical that 
we have the ongoing conversation.
    A couple points to begin with. I think the American public 
has given up, and I think that there is a huge variance between 
understanding privacy and understanding cybersecurity. They are 
not the same thing. And, you know, so most Americans say, look, 
I no longer believe that I have privacy. I do not know that you 
can regulate this. I do not know that you can control this. But 
they definitely want cybersecurity.
    And so one of the things that I believe as a former law 
enforcement official is that, you know, you can have all the 
most sophisticated law enforcement equipment, surveillance 
equipment, but you have got to teach people to lock the door. 
You have got to teach people to lock their car. You have got to 
teach people to pay attention, maybe put some surveillance 
equipment of their own. And so I talk about cyber hygiene and 
the role that cyber hygiene should play either with employees, 
not just, you know, at that level of the people sitting on the 
board, but at every level being trained and understand the 
challenges, but also with membership or clients or patients, 
what role do they play? What role do vendors play?
    We all harken back to what happened with Target. The Target 
breach was related to a vendor and a back-door worm that came 
in. So how do we build better resiliency, cyber resiliency, 
within the community, writ large, within all users, so that 
they understand that there are simple things that they can do 
that will help protect the cyber system, protect our overall 
system, while we are looking for that iron dome--let us put it 
that way, that iron dome that is going to make what we do 
impenetrable--which, quite honestly, I am not convinced you are 
ever going to get an impenetrable iron dome. And I think that 
the fault lines are always going to be at that lower level.
    So someone, anyone on the panel who wants to take on the 
issue of cyber hygiene and what we should be doing here to 
encourage it, to educate, to move this issue of every user 
needs to be informed on how we protect ourselves from a cyber 
attack as a country as a whole, kind of a ``lock your door'' 
strategy.
    Mr. Venables. Thank you, Senator, for the question. I will 
go first, and then others can chip in. I think you raise an 
extremely important point. I think in many respects we need to 
focus on basic cyber hygiene to make sure the easy attacks 
cannot be successful so we can focus our energy on the most 
sophisticated attacks. And I think it is the responsibility of 
all companies not only to make sure their employees and their 
own infrastructure is protected, but also to educate those 
employees and to educate our customers. I think this is a 
partnership that we can do between Government and the private 
sector to educate everybody around what best practices they can 
do to adopt the right controls for----
    Senator Heitkamp. I really do believe, as a former kind of 
customer protection/consumer protection advocate, that people 
want the tools. They want to understand how to do this. What 
can we do to provide easier accessible tools to lock the door? 
Mr. Nelson.
    Mr. Nelson. Yes, thank you. Just to give a plug for the 
multi-State ISAC, it is a State and local Government ISAC, and 
the
October Cybersecurity Awareness Month, they produce every month 
a cybersecurity newsletter. It is weight-labeled, so you can 
put it on your company's letterhead, give it all to your 
employees. It is a great effort. It has been going on for a 
couple years, and we all kind of get geared up for that month 
in October to educate consumers.
    So there are some efforts underway. It is a Government 
initiative, too, at the Federal level and the State level.
    Senator Heitkamp. Mr. Daniel?
    Mr. Daniel. Thank you, Senator. I also think that it is 
incumbent upon the industry, the cybersecurity industry, to 
make that cyber hygiene and the cybersecurity that you talk 
about as simple as possible for consumers to do. You know, for 
example, right now our guidance out to consumers is to have a 
16-character password that is not any actual words in the 
English language, that has all sorts of----
    Senator Heitkamp. And, you know, for a spreadsheet full of 
media passwords, they are all going to be different, like 
really?
    Mr. Daniel. Yes. And we need to get much better at enabling 
people to have very simple ways to do their cybersecurity. Sort 
of the analogy I use is that we make it very simple for people 
to use seat belts when you get in a car, and we do not expect 
you to answer questions about whether or not you want the 
antilock brakes to work. And so I think we need to try to find 
the same, similar kinds of solutions and approaches in 
cybersecurity.
    Senator Heitkamp. What grade would you give us right now in 
terms of how protected we are in a cyber hygiene world?
    Mr. Daniel. Well, I think we are certainly better off than 
where we were, say, you know, 5 or 6 years ago. So we certainly 
have made a lot of improvements. The problem is the bad guys 
keep improving as well. So I think that we still have a long 
way to go.
    Senator Heitkamp. Just a couple more comments, if that is 
OK.
    Mr. Kessler. Certainly, educating all Americans, as you are 
suggesting, is important but a monumental task. We try to 
approach it by educating our internal employees not only how to 
properly handle customers' information but their own, and then 
we attempt to engage with our customers when there is an event. 
For example, I think where you are going is if somebody is 
willing to buy gift cards in order to pay the IRS, there is a 
problem there. And how can we communicate to folks that this is 
not something they should be doing?
    I like the notion of a Cyber Education Month, and one of my 
peers here suggested including cybersecurity education in 
curriculums in higher education and in other parts of our 
academic--our normal education, which I think is a really good 
idea. Thank you.
    Senator Brown. Senator Cortez Masto.
    Senator Cortez Masto. Thank you. Thank you also. This is 
such an important conversation, and we have been having this, I 
know, on various committees that I sit on. I appreciate the 
discussion today.
    Let me say, you know, about 10 years ago, I remember 
sitting with our Nevada Banking Association, and we were 
talking about how we guard against identity theft. Now, 10 
years later, we have a proliferation of cyber threats and 
attacks that we had not even contemplated at that time. But I 
was struck, Mr. Daniel, by your comment to Senator Rounds that 
this cyber infrastructure is a little different and how we 
manage the enforcement and collectively address these issues. 
And it is not just Government's role to comment. It is 
everybody's role now to play a part in addressing the cyber 
infrastructure and protecting against cyber threats. And I 
think that is important for everybody to understand. That is 
the first time I have heard somebody say that. And it is. It is 
important because it goes back to this issue that we have been 
talking about. Everyone has a role in education. To me, 
education is the first step in prevention. But everybody has 
that role in education. Everybody has a role in the 
coordination and the information sharing. When I say everyone, 
from Government to the private sector, the consumer, everyone 
has a role, and the businesses as well. And then the workforce 
shortage that we have, that I have heard here as well, we can 
all play in this discussion.
    Let me follow up on a couple of comments that were made. 
One of them, Mr. Kessler, you talked about the need to pass 
legislation that encourages information sharing. Can you go 
into a little bit more about that and what you are talking 
about? Who is sharing the information? What type of information 
are you referring to?
    Mr. Kessler. Sure. Thank you very much. As a community bank 
and a smaller institution, we would benefit from a lot of what 
Mr. Daniel has already talked about in terms of the sharing of 
indicators of threat throughout the industry. So as another 
bank identifies something, they would share it, and we would 
automatically protect against that.
    There are challenges today, when I talk to my service 
providers and ask them are they participating with FS-ISAC, the 
answer is yes. Are they sharing threats in real time? I often 
get the answer no, and the cited reasons are they have 
confidentiality agreements with us, they have privacy 
requirements, all things that we all agree are absolutely 
valuable and essential, but at the same time, from my point of 
view, are preventing us from receiving some of that threat 
intelligence that would help us to further protect the 
customer's privacy.
    Mr. Nelson. I would like to comment on that. I think one of 
the great things about the FS-ISAC is you can share anonymously 
on the portal, so I would encourage your third-party processor 
to get in touch with me, and we can work on that. We get legal 
objections all the time. A lot of times we first get involved 
in the FS-ISAC, you think, ``Oh, my name is going to be in the 
paper tomorrow if I share.'' Well, it does not happen. We have 
pretty good controls around that information. It is not shared 
with attribution. In fact, every time there is an attack, our 
members are sharing online real-time. In fact, I was visiting a 
CISO in Charlotte, North Carolina. You can guess which one. 
There are a couple big ones there. And I was meeting with him, 
and he had to leave to go into a special meeting for an attack 
that was occurring. I whip out my BlackBerry or at that time I 
guess it was my iPhone, looked at it, and there was the alert 
already. I did not say where it was coming from. I knew it was 
from him. So it was happening that fast while they were 
actually in a war room handling the attack.
    So it can occur. It is just getting the right people. And 
lawyering up is not the answer. The answer is talk to us, let 
us get involved in it, and it is a pretty good voluntary 
system. We get lots of members sharing information. We have 
other third-party processors that are sharing.
    Senator Cortez Masto. Thank you. So I would be interested 
in knowing at the Federal level if there is legislation that 
actually needs to be introduced or if it is more just 
communication and working together.
    I know my time is running out, but we are talking a lot of 
acronyms here as well. FS-ISAC, can you explain a little bit 
more what that is? And I recognize, I come from Nevada, I am 
not so sure we have that type of coordination. I know it is on 
the coasts, but I am not sure it is happening in every single 
State, or there is that collaboration.
    Mr. Nelson. It is happening in every State. It is happening 
in 44 countries. We have 7,000 companies that are members now. 
It was interesting. In 2014, Senator Crapo mentioned that was 
the year of the data breach. It was also the year that the 
FFIEC, which is the regulatory agencies, the banking regulatory 
agencies, like the FDIC, OCC, even the National Credit Union 
Administration, and others, put out a policy statement saying 
you should share information if you are one of our regulated 
entities, and you need to belong to FS-ISAC. We 
affectionately--_
    Senator Cortez Masto. Which stands for and means?
    Mr. Nelson. Financial Services Information Sharing and 
Analysis Center. And when that happened, we affectionately 
refer to that as the membership tsunami started. We had 2,200 
companies join that year, and we have been growing ever since. 
When I started, we had 200 members in 2006, and it has just 
been hockey stick growth the last few years.
    Senator Cortez Masto. Thank you. I know my time has run 
out. Thank you very much.
    Senator Brown. Senator Jones.
    Senator Jones. Thank you, Mr. Chairman. And thank you to 
all the witnesses for being here. I agree that all of a sudden 
everything that I am seeing up here, there is some element of 
cybersecurity. It does not matter what committee I am on. It 
touches everything. And I think you guys touched on this before 
I got here, and that is the cyber workforce and trying to keep 
pace with the demand.
    In Alabama, we have got Auburn University, which has got an 
incredible facility. Their cyber research center, University of 
Alabama in Huntsville, has one. And so we are doing our share 
down there. But if you could, just expand a little bit on 
challenges that are being faced because so many industries are 
now competing for this workforce. And that is only going to 
grow, I believe. It is only going to grow.
    And so what can we do, what can the industry do? What are 
the challenges? Is there anything that we can look at in the 
Senate and the Congress to try to help with increasing the 
workforce for cybersecurity? I will just let you guys fight it 
out. Who wants to answer?
    Mr. Venables. I can go first, Senator. I think it is a 
really interesting question because I think while the backdrop, 
we have to
continue to encourage STEM education at all levels to feed a 
solid technology and engineering workforce for the Nation. I 
think also we have to not just focus on having trained and 
dedicated cybersecurity professionals, but thinking across all 
sectors from whether it is business risk management through to 
engineering through to product design, in making sure and 
encouraging in some way that every part of that, whether it is 
vocational training, academic training, professional 
qualifications, have an element of thinking about 
cybersecurity, privacy, and other aspects of technology risk 
and ethics about how we use technology.
    So I think while it would be very important to continue to 
focus on creating more cybersecurity professionals, I think 
most of us worry just as much about making sure that every part 
of our workforce, both private and public, is equipped with the 
skills to think about how to manage this risk as a core part of 
their job.
    Senator Jones. That is good.
    Mr. Sydow. Senator, the other thing I think we can do is 
expand the pool. Right now females only represent 9 percent of 
the cyber workforce, and we have the same issue across 
technology. We need to continue to encourage young ladies to 
join the profession. I know at EY we do several things, Girls 
That Code, other things to encourage organizations to get women 
into the workforce. I think that would be helpful to expand the 
base.
    Senator Jones. Right. We have done a pretty good job of 
that in the political world because they are all running for 
office this year. But I agree with you, that is incredibly 
important. You know, Bishop State, I was down there visiting a 
junior college recently, and Apple has a coding program that 
they are working on with the students down there. I would 
assume that cybersecurity is always going to be a part of that 
as well. So thank you.
    I do not know if anybody else has anything on that, but if 
not, I have got one more.
    Mr. Daniel. Well, the only thing I would add, Senator, is 
that I also think that we need to diversify our thinking about 
what we mean about the cyber workforce. Just as in health care 
not everybody is trained up to the same level as a neurosurgeon 
specialist, we need to diversify our thinking about the levels 
of training and who does what in the workforce so that, again, 
we can also continue to expand that pool.
    Senator Jones. Perfect. Thank you for those. Those were 
great answers. Thank you.
    I want to kind of followup real briefly on something that I 
think Senator Reed kind of touched on as well, and that is the 
assessment of the risk, because I understand his bill to try to 
get more information into investors and the marketplace about 
cybersecurity at companies. But I am wondering if any of you 
think that those ought to be--you know, something about 
cybersecurity threats ought to be included in the risk. When a 
business or, in particular, for instance, a municipality is 
rated, bondholders often would look at a municipality, for 
instance, as to whether or not that bond is going to be safe 
because of cybersecurity. Is there a way that we should rate 
using cybersecurity as well?
    Mr. Venables. I think there is a number of existing 
disclosures that occur particularly for public companies as 
part of their regular filings and risk disclosures, and 
certainly all the requirements to disclose if major events, 
particularly material events, occur.
    I think there is also a lot of work in the industry where 
there is more and more public ratings of the outward appearance 
of various different companies, and certainly I think a lot of 
the big audit firms, as the gentleman from Ernst & Young 
mentioned, working with us on various different standards 
through the AICPA to be able to vet and independently assess 
the level of security and risk in those companies. I think it 
would be interesting to further explore how that could be 
married with other types of public disclosures so you get a 
full picture of the risk of organizations. I think it is 
certainly something there is a lot of activity on and probably 
is worth future consideration.
    Senator Jones. Great. Well, thank you all very much.
    Thank you, Mr. Chairman.
    Chairman Crapo. [Presiding.] Thank you. Senator Brown has 
one----
    Senator Brown. Yeah, one question. It is really a yes or no 
question for Mr. Kessler. You talked about how important it is 
to notify your customers. Did Equifax share information with 
you about the breach in time to help your bank's customers?
    Mr. Kessler. No.
    Senator Brown. OK. Thanks.
    Chairman Crapo. Senator Warner, just under the wire. You 
have got 5 minutes or less.
    Senator Warner. Thank you, Mr. Chairman, for that gracious 
accommodation.
    [Laughter.]
    Chairman Crapo. We always appreciate you.
    Senator Warner. Mr. Venables, we have a lot of legacy IT 
systems that are out there. Some of the systems are still 
Fortran and COBOL. You know, how do we make sure, as we do 
upgrades--and I understand the United Kingdom just went through 
a complete meltdown when they tried to--one of their banks 
tried to do an upgrade of their system. How are we thinking 
through this issue as we think about 21st century cybersecurity 
when we have got the legacy IT systems in place?
    Mr. Venables. Thank you, Senator. I think it is a 
fascinating question because one of the things in my testimony 
you are always keen to point out was cybersecurity is 
tremendously important but it is not the only technology risk 
society faces. We have multiple different risks, not least 
including how we continue to maintain and update legacy systems 
to make sure those are equally protected with all the new 
systems that we are building.
    One of the things that is interesting, I think particularly 
most financial institutions, but I think many other large 
corporations have pretty exacting standards for change 
management, software quality assurance, standards for how they 
apply preventative maintenance to systems to reduce exactly 
that type of major project and major IT migration risk.
    The other thing that I think is worth pointing out as well 
is while there is a tremendous amount of focus from the 
financial
regulators on cybersecurity, there is also still an equivalent 
amount of focus on change management, software acquisition and
development, testing assurance, major project risk management. 
In fact, there is a whole shelf full of FFIEC IT examination 
handbooks, and quite a large number of them are about project 
risk and major IT migration risk, and it is certainly something 
that I think all major financial institutions experience quite 
a lot of scrutiny over not just cyber, but also their IT 
project risk management standards.
    Senator Warner. For a lot of these systems, the legacy 
systems, frankly, the original software vendor may not have 
continued to offer those systems, have not continued to upgrade 
them, so there are these huge vulnerabilities?
    Mr. Venables. I think part of the challenge, again, not 
just confined to the financial sector but across the world at 
large, is making sure you stay up to date within some 
reasonable window so that the older systems that may not be 
supported by vendors, you are not exposed to risks from those. 
So I think just like any other type of apparatus, you have to 
invest in preventative maintenance and upgrades to keep 
yourself within some window to manage that technology risk.
    Senator Warner. Anyone can address this, but my concern is 
because of the interconnectivity of all of your systems, aren't 
you only as strong as your weakest link? If a single--if an 
institution does not keep up, doesn't that make the whole 
system vulnerable?
    Mr. Venables. Well, not necessarily an individual 
institution, but certainly what we look at through the 
organizations we have set up, like the FS-ISAC and the FS-ARC, 
and also in work with the Department of Treasury and various 
other initiatives, we are exactly looking for those systemwide 
risks that could affect everybody that may be contributed by 
one or more elements of that, and so we are definitely focused 
on systemic risk.
    Senator Warner. I think this is probably outside the scope 
of the whole hearing, but to me, when we do not have a single 
data breach notification requirement, when we have an Equifax 
making as gross an error as they did and no obligation to 
report, or even when Yahoo has hundreds of millions outside the 
financial system but that is not even reportable on a SEC 
filing, they do not think it was material enough, I do not see 
how these massive failures should not fall into at least the 
level of a material disclosure in terms of SEC filings. So 
what--and I think I am down to 47 seconds, the last question. 
Maybe I will leave it at that and just come back to you 
individually, because I would like to have gotten the more 
macro approach of how we are going to get at this.
    I just came from another intel brief, classified brief. 
This problem is going to only exponentially grow, and I am not 
sure--one of the things I think particularly as we think about 
from both the hardware and software side, if we think about 
financial institutions, for example, that might be starting to 
purchase ZTE and Huawei equipment, you know, the 
vulnerabilities that we may be building into our systems 
because we--and this is more the intelligence community's 
responsibility--are not fully informing the financial sector 
and other sectors of some of what we now call classified 
problems that we have got to get out, is only going to get 
much, much worse.
    So my apologies for getting here late, to the Ranking 
Member, and my hope is I will have a chance to pursue some of 
these conversations with you individually. Yes, sir?
    Mr. Nelson. Senator, I would like to comment. We at the FS-
ISAC, we are an information-sharing body, and we have people 
embedded at a top secret level at the NCCIC, the National 
Cybersecurity Communications and Integration Center, at DHS. So 
we are seeing some of that, and when we get--when it is 
relevant, actionable for a community, we are sharing it. Also, 
FS-ARC is a subsidiary, and, Phil, you are involved in that. 
They are doing it at a much more systemic level to see if there 
is any systemic impact. So we have some of that in place. I 
think we could do more.
    Senator Warner. My concern is, you know, virtually every 
mid-sized to larger financial institution around should have 
somebody that has got classified status and clearances 
because--and this is where I am trying to push on the intel 
side. The intel side has not been as forthcoming to the----
    Mr. Nelson. We could use a little bit of help in getting 
more people classified quicker.
    Senator Warner. Well, the fact that there is a 74,000-
person backlog is insane, and that is a national security risk 
that----
    Mr. Nelson. I agree.
    Mr. Venables. Yeah, we would certainly support a much 
better clearance process to achieve that goal.
    Senator Warner. Right.
    Senator Brown. [Presiding.] Thank you, Senator Warner.
    All of us, every Senator, can submit questions to you, and 
the questions are due Thursday, May 31st, a week, and please, 
each of you, if Senators do submit questions in writing, please 
respond to them as quickly as you can.
    This concludes the hearing. Thank you for being here today. 
The hearing is adjourned.
    [Whereupon, at 10:43 a.m., the hearing was adjourned.]
    [Prepared statements and responses to written questions 
supplied for the record follow:]
               PREPARED STATEMENT OF CHAIRMAN MIKE CRAPO
    Today, we will hear about cybersecurity in the financial sector.
    Today's witnesses come from a wide range of organizations, and can 
provide us with insight on the threats faced by and the preparedness of 
the financial sector when it comes to cyber.
    Four years ago, this Committee held a similar hearing where I noted 
that a recently aired ``60 Minutes'' segment called 2014 ``the year of 
the data breach.''
    Given the various data breaches over the past few years, most 
notably the Equifax data breach last year, I am not sure 2014 still 
holds that title.
    As our society increases its reliance on technology and becomes 
accustomed to immediate access to information and services from 
companies, the risk of--and the potential damage caused by--data 
breaches continually increases.
    Americans are becoming more aware of the amount of information, 
including personally identifiable information or PII, that is stored by 
companies and there is a growing realization that this information can 
be stolen or misused.
    The collection of PII by both the Government and private companies 
is something that has long troubled me. Many question how both use the 
data collected and how such data is secured and protected. ``The 
collection and use of PII will be a major focus of the Banking 
Committee moving forward, as there is broad-based interest on the 
Committee in examining this.
    Today, we will hear from our witnesses regarding cybersecurity and 
about the risks to the financial services industry and its 
preparedness.
    We have heard from many regulators before this Committee about 
their focus on and oversight of cybersecurity and how it is critical to 
the operations of companies and our markets.
    This is especially true for companies in the financial services 
space.
    The financial sector itself is a main target for hackers because, 
as many have said, ``that's where the money is.''
    Banks are under constant attack every day. Because of this, they 
and other firms in the financial services industry have devoted 
substantial resources to protecting information systems, and the 
industry is widely viewed as one of the most advanced sectors in terms 
of prioritizing cybersecurity.
    Today, I hope to learn more about: the risks to the financial 
services industry from cyberattacks and cyber threats; the work being 
done in the financial services industry to increase cyber readiness, 
combat cyberattacks, and increase resiliency; and what more needs to be 
done by the private sector and Government to help protect companies' 
and consumer's information.
    It is critical that personal data is protected, consumer impact in 
the event of a breach is minimized, customers' ability to access credit 
and their assets is not harmed, and the financial sector is resilient 
enough to continue to function despite a cyber breach at a financial 
sector company.
                                 ______
                                 
                   PREPARED STATEMENT OF BILL NELSON
   President and CEO, The Financial Services Information Sharing and 
                       Analysis Center (FS-ISAC)
                              May 24, 2018
    Chairman Crapo, Ranking Member Brown and other Members of the 
Committee: Thank you for inviting me to testify at this hearing on 
``Cybersecurity: Risks to Financial Services Industry and Its 
Preparedness.'' My name is Bill Nelson and I am President and CEO of 
the Financial Services Information Sharing and Analysis Center (FS-
ISAC), as well as Chairman of the Global Resilience Federation (GRF) 
for cross-sector threat-intelligence sharing.
    At your request, I will cover the following topics:

  <bullet>  Current cyber-risks and threats that the financial-services 
        industry faces;

  <bullet>  Efforts by the financial-services industry that are already 
        underway in order to increase cyber-readiness, combat cyber-
        attacks and strengthen the industry from cyberthreats; and

  <bullet>  Proposed additional measures by public and private sectors 
        to better protect companies' and consumer's information.

    Before I describe these, I want to provide background about the 
role the FS-ISAC plays in the financial sector. Three key takeaways I 
would like to leave you with today:

  <bullet>  Despite a dynamic and ever-changing cyberthreat 
        environment, the financial sector has invested heavily to 
        protect the sector's assets and consumers' information from 
        adversaries and cybercrime;

  <bullet>  The financial sector has collaborated effectively to 
        enhance cyber-resilience; and

  <bullet>  The financial sector continues to benefit from strong 
        public-private partnerships that enable cyberthreat 
        intelligence to flow through the sector and improve sector 
        detection, prevention, and response to cyberthreats and other 
        risks.

FS-ISAC: Information Sharing to Fight Cybercrime
    FS-ISAC's mission is to help assure the resilience and continuity 
of the global financial-services infrastructure and individual firms 
against acts that could significantly impact the sector's ability to 
provide services critical to the orderly function of the economy. As 
such, FS-ISAC stands front and center in the face of continued cyber-
attacks against our sector. FS-ISAC shares real-time threat and 
vulnerability information, conducts coordinated contingency planning 
exercises, manages rapid-response communications for cyber- and 
physical events, conducts education and training programs, and fosters 
collaboration with and among other key sectors and Government agencies. 
Think of FS-ISAC as a ``virtual neighborhood watch,'' where financial 
institutions help keep an eye out for each other.
    FS-ISAC was formed in 1999 in response to Presidential Decision 
Directive 63 (PDD 63) of 1998, which called for the public and private 
sectors to work together to address cyberthreats to the Nation's 
critical infrastructures. After the 9/11/2001 attacks, and in response 
to Homeland Security Presidential Directive 7 (and its 2013 successor, 
Presidential Policy Directive 21) and the Homeland Security Act, FS-
ISAC expanded its role to encompass physical threats to the sector. FS-
ISAC is a 501(c)(6) nonprofit organization and is funded by its member 
firms, sponsors and partners.
Rapid Growth Both Nationally and Globally
    FS-ISAC has grown rapidly in recent years. Today, we have about 
7,000-member organizations of all sizes, including commercial banks, 
credit unions, exchanges, brokerages and investment companies, 
insurance companies, payment processors and professionals, and trade 
associations. We also maintain close ties with other financial-industry 
trade associations as well as select, trusted Community Emergency 
Response Teams (CERTs) and Computer Security Incident Response Team 
(CSIRTs), law enforcement agencies, and other information-sharing 
initiatives around the world.
    The FS-ISAC is based in Reston, VA. Because today's cybercriminal 
activities transcend country borders, the FS-ISAC has expanded globally 
and has active members in 44 countries. The FS-ISAC has over 100 
employees and consultants in eight countries across five continents.
Financial Firms Respond to a Dynamic Threat Environment
    In many respects, the current threat environment feels like an 
``arms race,'' and the financial sector has done a lot to enhance its 
individual and collective capabilities. Each day, cyber-risk evolves as 
attacks increase in number, pace and complexity. The financial sector 
has invested significantly to detect, prevent and respond to 
cyberthreats and other risks. Our member firms constantly adapt to this 
changing threat environment. At the same time, malicious cyber-actors, 
with increasing sophistication and persistence, continue to target the 
financial-services sector. These actors vary considerably, in terms of 
motivations and capabilities, from nation-states conducting corporate 
espionage or launching disruptive and even destructive attacks, to 
advanced cybercriminals seeking to steal money and hacktivists intent 
on making political statements.
    The financial sector (in addition to other critical-infrastructure 
sectors) is increasingly concerned about the possibility of attacks 
that could potentially undermine the integrity of critical data, or 
lead to the manipulation or destruction of data. This growing threat 
affects all institutions in our sector, regardless of size or type of 
financial institution (e.g., bank, credit union, insurer, payment 
processor or brokerage/investment firm).
Tactics Used by Adversaries and Criminals to Target Financial Firms
    There are numerous tactics that malicious cyber-actors use to 
target institutions, including the following:

  <bullet>  Targeted spear-phishing campaigns, which are fraudulent 
        emails that
        appear to be legitimate. These emails trick users into 
        supplying sensitive
        information such as passwords that can result in the theft of 
        online credentials and fraudulent transactions.

  <bullet>  Destructive malware attacks that impact the 
        confidentiality, integrity and availability of data.

  <bullet>  Ransomware attacks, which involve malware that is 
        downloaded and used to restrict access to an infected computer 
        (often via encryption) until a ransom is paid (often in 
        Bitcoin).

  <bullet>  Distributed-denial-of-service (DDoS) attacks, which can 
        impede access to services for extended periods of time.

  <bullet>  Pretexting, which is built on a false narrative and 
        establishment of trust to ultimately initiate unauthorized 
        activity such as wire transfers. One form of this type of 
        scheme is known as a ``business email compromise'' attack.

  <bullet>  Data breaches, which steal sensitive information including 
        payment and account information.

  <bullet>  Supply chain threats.

  <bullet>  Insider threats.
Beyond Sharing: FS-ISAC and Financial Sector Resilience
    Driven by the direction of our membership, FS-ISAC performs a 
number of key critical functions. We share threat and vulnerability 
information; conduct coordinated exercises; manage rapid-response 
communications for cyber- and physical events; produce education and 
training programs; and foster collaboration with other key sectors and 
Government agencies. We have greatly expanded our products and services 
to members. In particular, we have devoted a large number of resources 
to expand our services and tailor them to smaller financial 
institutions and their service providers.
1. Information Sharing
    FS-ISAC enables its members to voluntarily and efficiently share 
real-time threat and vulnerability information for cyber- and physical 
incidents. We delivery timely, relevant and actionable cyber- and 
physical threat information through email, web portal, telephone, and 
automated feed alerts from various trusted sources and our members. FS-
ISAC maintains policies, procedures and controls to ensure that all 
threat information shared by members is properly gathered, stored, 
labeled and used in a manner that abides by related sharing agreements, 
privacy protections, circles of trust, member operating rules, regional 
requirements and governing laws.
    FS-ISAC cooperates with members and partner organizations, 
including several public-private partnerships. These include 
facilitating information sharing from Government partners to the FS-
ISAC community and assisting members in engaging Government and law 
enforcement members when required. For example, an FS-ISAC employee 
participates in the watch floor of the U.S. Department of Homeland 
Security's (DHS) National Cybersecurity and Communications Integration 
Center (NCCIC), playing an important role in our public-private sector 
information and analysis sharing.
The Basis for the Community: Circles of Trust
    We support numerous ``circles of trust'' based on roles (e.g., 
chief information security officers, business continuity executives, 
payments professionals, compliance experts) and institutions (e.g., 
asset managers, broker dealers, clearing houses, community banks, 
credit unions, payment processors). We host regular threat-information 
sharing conference calls for members and invite subject matter experts 
to discuss the latest threats, vulnerabilities and incidents affecting 
critical infrastructure. We organize and coordinate numerous regional 
member meetings, roundtables, workshops and other forums that allow 
face-to-face exchange between members.
    Our largest trust circle--the Community Institution and Association 
Council--includes thousands of community banks and credit unions that 
actively share information about threats, incidents and best practices. 
Since 2014, over 4,500 community institutions have joined FS-ISAC. 
Within this Council, member discussions and participation increased 24 
percent in 2017. In the last 12 months, the FS-ISAC's industry-focused 
webinars on numerous topics, including protections against fraud, 
threat-intelligence methods and cybersecurity tools, were attended by 
nearly 20,000 attendees.
    In addition, FS-ISAC works with numerous national and State-based 
financial and payments organizations, including the American Bankers 
Association (ABA),
Financial Services Roundtable (FSR), Credit Union National Association 
(CUNA), Independent Community Bankers of America (ICBA), National 
Automated Clearing House Association (NACHA) and Securities Industry & 
Financial Markets
Association (SIFMA), as well as card payment associations, payment 
processors and State banking associations.
2. Creating and Invoking Playbooks for Incident Response
    FS-ISAC maintains the financial-services sector's ``All Hazards 
Crisis Response Playbook,'' which outlines the processes and 
considerations for identifying and responding to significant threats or 
events. As an example of sector-wide collaboration, this playbook was 
developed in conjunction with many of our members and other industry 
associations. We also lead sector-level crisis-response coordination 
and manage the Critical Infrastructure Notification System (CINS) for 
emergency threat or incident notifications to members.
Reducing Fear, Uncertainty, Doubt Through Media Response
    FS-ISAC seeks to reduce fear, uncertainty and doubt through sector-
level responses on significant cyber- and physical events. The FS-ISAC 
Media Response Team was established in 2014, following highly visible 
cyberattacks that impacted the financial-services sector and other 
sectors like retail that were broadly reported in the press. The Team's 
mission is to accurately assess the actual current and potential risk 
of cybersecurity events (as opposed to the potential media ``hype'' 
commonly seen) and leverage the FS-ISAC brand to properly respond to 
media activity using a fact-based approach. The team also strives to 
educate reporters and the public about cybersecurity and financial-
sector practices, concepts, and terminology.
3. Always Ready: Cyber-Exercises and Incident Response
    Exercises are a proactive step to practice plans, find and close 
gaps, and better protect systems and communities. FS-ISAC began 
conducting exercises in 2010 with the Cyber-Attack Against Payments 
Systems (CAPS) exercises. FS-ISAC has since added exercises, such as 
drills, to test the All-Hazards Crisis Response Playbook as well as 
regional exercises. In 2014, we launched the ``Hamilton Series'' of 
exercises in collaboration with the U.S. Treasury Department and the 
Financial Services Sector Coordinating Council (FSSCC). These exercises 
simulate a variety of plausible cybersecurity incidents or attacks to 
better prepare the financial sector and the public sector for 
cyberattacks. They also aim to improve public-and private-sector 
policies, procedures and response capabilities. The ``Hamilton Series'' 
has included leaders from the U.S. Treasury Department, financial 
regulatory bodies, the Department of Homeland Security and law 
enforcement agencies. Starting in 2018, FS-ISAC added range-based 
cyber-exercises for more technical, hands-on-keyboard experiences to 
raise capability maturity levels and resiliency across the sector. 
Collectively, these efforts build on the strong risk-management culture 
within the financial-services sector, in conjunction with extensive 
regulatory requirements.
    FS-ISAC has improved its ability to respond to major cyber- and 
physical events, including emergency member calls regarding new 
vulnerabilities and threats. The last call we had had over 3,000 
participants.
4. Support for the FSSCC, Sheltered Harbor, FSARC, Regional Coalitions 
        and Other Sectors
    FS-ISAC supports several programs, either through direct funding or 
through subsidiary arrangements. These are outlined below.
Addressing Policy Issues: The Financial Services Sector Coordinating 
        Council (FSSCC).
    The FSSCC was established in 2002 to coordinate the development of 
critical-infrastructure strategies and initiatives with its financial-
services members, trade associations and other industry sectors. The 
FSSCC works with the public sector on policy issues concerning the 
resilience of the sector. Members include 70 financial trade 
associations, financial utilities and critical-infrastructure financial 
firms.
    FS-ISAC serves as the operational arm of FSSCC, providing 
operational support of FSSCC initiatives. The FS-ISAC and FSSCC have 
built and maintained relationships with the U.S. Treasury and Homeland 
Security Departments, all the Federal financial regulatory agencies 
(e.g., Federal Deposit Insurance Corp., Federal Reserve Board of 
Governors, Federal Reserve
    Banks, Office of the Comptroller of the Currency, Securities and 
Exchange Commission), and law enforcement agencies (e.g., Federal 
Bureau of Investigation, U.S. Secret Service). Many of these public-
sector agencies are part of the FSSCC's public-sector counterpart, the 
Financial and Banking Information Infrastructure Committee (FBIIC), 
which is chaired by the U.S. Treasury Department.
An Extra Layer of Security for Consumer Accounts:
    Sheltered Harbor. Sheltered Harbor was established in 2016 as an 
LLC, operating under FS-ISAC's umbrella, to enhance the financial-
services industry's resiliency capabilities in the event of a major 
disaster or event. The concept for Sheltered Harbor arose in 2015 
during a series of successful cybersecurity simulation exercises 
between public and private sectors known as the ``Hamilton Series.''
    Sheltered Harbor is based on industry-established standards and the 
concept of mutual assistance. Should a financial institution be unable 
to recover from a cyber-attack in a timely fashion, firms that adhere 
to the Sheltered Harbor standards will enable customers to access their 
accounts and balances from another service provider or financial 
institution. Sheltered Harbor members access specifications for common 
data formats, secure storage (``data vaults'') and operating processes 
to store and restore data and receive a Sheltered Harbor 
acknowledgement of adherence to the specification. As of April 2018, 
Sheltered Harbor membership covers more than 69 percent of U.S. retail 
bank deposit accounts and 56 percent of U.S. retail brokerage client 
assets.
Systemic Risk Reduction: Financial Systemic Analysis and Resilience 
        Center (FSARC).
    The CEOs of eight U.S. Government designated critical 
infrastructure firms--Bank of America, BNY Mellon, Citigroup, Goldman 
Sachs, JPMorgan Chase, Morgan Stanley, State Street, and Wells Fargo--
came together to proactively identify ways to enhance the resilience of 
critical infrastructure underpinning the U.S. financial system. The 
result was the creation of the FSARC as a subsidiary of the FS-ISAC. 
Shortly after the FSARC was founded, an additional eight financial 
institutions, including the key financial market utilities identified 
by the U.S. Department of Homeland Security as operators of essential 
critical infrastructure, joined the FSARC as member firms.
    The FSARC's mission is to proactively identify, analyze, assess and 
coordinate activities to mitigate systemic risk to the U.S. financial 
system from current and emerging cybersecurity threats. This is 
accomplished through focused operations and enhanced collaboration 
between participating firms, industry and Government partners. Key 
FSARC functions include:

  1)  Identifying operational risks associated with systemically 
        relevant business processes, functions, and technologies 
        underpinning the financial sector (collectively ``Identified 
        Systemic Assets'');

  2)  Developing resiliency plans to address those risks;

  3)  Working with critical-infrastructure operators and the U.S. 
        Department of Homeland Security, intelligence and defense 
        communities to deliver strategic early warnings of attack on 
        Identified Systemic Assets;

  4)  Working with law enforcement agencies to disrupt sophisticated 
        malicious actors that may pose a systemic risk to the sector 
        over time or may be targeting Identified Systemic Assets.

    Thinking Nationally, Acting Locally: Regional Coalitions. Financial 
institutions in more than a dozen areas participate in the ``FIRST'' 
(Fostering Industry Resilience and Security through Teamwork) movement 
through the formation of public-private partnerships focused on 
Homeland security and emergency management issues with the public 
sector. Each coalition provides the opportunity for members to 
collaborate with one another and with Government at all levels about 
issues of resilience and security.
    FS-ISAC has established regional coalitions in the Northeast 
(Connecticut, Maine, Massachusetts, New Hampshire, New Jersey, New 
York, Rhode Island and Vermont), Mid-Atlantic (District of Columbia, 
Delaware, Maryland and Northern Virginia) and California (San 
Francisco, Fresno and Los Angeles). Through regional coalitions, FS-
ISAC learns the ground truth about the local effects of crises, while 
the coalitions obtain national-level crisis and threat information from 
FS-ISAC. FS-ISAC also supports RPCfirst, an umbrella organization for 
all of the regional coalitions across the Nation.
Cross Sector Collaboration and Sharing
    The FS-ISAC collaborates with other sectors, including the National 
Council of ISACs (NCI). Formed in 2003, the NCI today comprises 24 
organizations designated as their sectors' information sharing and 
operational arms.
    Last year, the FS-ISAC spun off its Sector Services division into a 
new standalone, not-for-profit called the Global Resilience Federation. 
I serve as the chairman of GRF, which is an information-sharing hub and 
intelligence provider. GRF
develops and distributes cyber-, physical and geo-political security 
information among not-for-profit ISACs, ISAOs, CERTs and other 
information sharing communities across vital sectors around the world. 
The company assists in the creation and operation of ISACs and ISAOs, 
or, if requested, support for the expansion of existing communities. 
This ``community of communities'' was founded by charter members--FS-
ISAC, Legal Services Information Sharing and Analysis Organization (LS-
ISAO) and Energy Analytic Security Exchange (EASE)--and has since been 
joined by National Health ISAC, Oil and Natural Gas ISAC, Multi-State 
ISAC, Retail Cyber Intelligence Sharing Center and National Retail 
Federation. As a cross-sector hub that also works with Government and 
industry partners, GRF facilitates and supports cross-sector 
intelligence sharing as well as collaboration.
Regulatory Requirements and Risk Management Culture
    The financial sector has historically led the way in making 
substantial investments in not only security infrastructure and highly 
qualified experts to maintain the systems, but also in driving 
collaboration across industries and with the Government. Financial 
institutions recognize that customers trust them to protect their 
investments, their records and their information. Individual financial 
institutions invest in personnel, infrastructure, services and top-of-
the-line security solutions and protocols to protect their customers 
and themselves, and to respond to cyber-attacks. These investments 
protect the individual institutions and their customers, but on its 
own, an individual institution generally only has the ability to 
protect what is within its control. Financial institutions, however, 
are interconnected to each other, with other sectors and with the 
Government. This reliance on others gives the financial-services sector 
a unique and critical role in the cyber-landscape and requires 
coordinated action for the most effective response. Recognizing the 
cyberthreat environment continues to expand in complexity and 
frequency, and that individual institution efforts alone will not be 
enough, executives from the financial-services sector have stepped up 
efforts to work together.
Cybersecurity Practices Often Burdened by Regulation and Supervisory 
        Oversight
    Financial institutions are subject to comprehensive regulations and 
supervisory requirements with respect to cybersecurity and the 
protection of sensitive customer information as well as business 
resiliency. For example, Title V of the Gramm-Leach-Bliley Act of 1999 
(GLBA) directed regulators to establish standards for financial 
institutions to protect customer information. Pursuant to GLBA, 
regulators have imposed broad information security requirements for 
regulated financial institutions with strong enforcement authority. In 
addition to issuing regulations almost two decades ago, the Federal 
financial regulators have issued extensive ``supervisory guidance'' 
through the Federal Financial Institutions Examination Council (FFIEC) 
that outlines the expectations and requirements for all aspects of 
information-security and technology-risk issues, including 
authentication, business continuity planning, payments and vendor 
management.'' Among the obligations to secure systems and protect data 
under GLBA and supervisory guidance, financial institutions must:

  <bullet>  Develop and maintain an effective information-security 
        program tailored to the complexity of their operations;

  <bullet>  Conduct thorough assessments of the security risks to 
        customer information systems.

  <bullet>  Oversee service providers with access to customer 
        information, including requiring service providers to protect 
        the security and confidentiality of information;

  <bullet>  Train staff to prepare and implement information-security 
        programs;

  <bullet>  Test key controls, systems and procedures, and adjust key 
        controls and security programs to reflect ongoing risk 
        assessments;

  <bullet>  Safeguard the proper disposal of customer information; and

  <bullet>  Update systems and procedures by taking business changes 
        into account.

Many Regulations and Standards with Which to Comply

    Financial institutions must comply with cybersecurity requirements 
and guidance from numerous regulatory bodies depending on their charter 
and activities. What's more, depending on the type of financial 
institution, organizations may have additional compliance and 
nonregulatory standards; for example, institutions that handle payment 
information also are required to comply with nonregulatory standards, 
such as the Payment Card Industry Data Security Standard (PCI-DSS). 
This adds to the compliance burden of financial institutions, as well 
as that of merchants and other organizations that handle payment 
information.
    Most recently, the FFIEC issued the Cybersecurity Assessment Tool 
(CAT)--an assessment tool designed to help smaller institutions, in 
particular, identify their risks and determine their cybersecurity 
preparedness. The CAT provides a repeatable and measurable process for 
financial institutions to measure their cybersecurity preparedness over 
time and aligns with the NIST's Cybersecurity Framework. In 2016, the 
FS-ISAC and FSSCC leveraged the FFIEC's CAT to produce a ``crowd-
sourced'' version that incorporated automation to assist financial 
institutions in utilizing the FFIEC document.
Recommendations to Further Protect Financial Institutions and Customers
    Finally, you asked me to describe what more needs to be done by the 
private sector and the Government to help protect companies' and 
consumers' information. For many years the financial sector has been 
working diligently and collaboratively to make significant improvements 
in five major areas:

  <bullet>  Enhance Information Sharing

  <bullet>  Improve Strategic and Tactical Analytics

  <bullet>  Improve Crisis Management Response and Coordination

  <bullet>  Improve Core Components of the Cyber Eco-system through R&D

  <bullet>  Improve Executive Communication and Advocacy

    The financial-services sector has made significant progress in all 
of these. In so doing, the financial sector has developed strong 
collaborative relationships with numerous Government agencies 
(including law enforcement, DHS, Treasury, and U.S. regulatory 
agencies). These efforts have enhanced the resiliency of the financial-
services sector. We also have worked closely with other ``critical 
infrastructure'' sectors (e.g., telecommunications, energy) to enhance 
their capabilities and to address interdependencies.
    While we are making good progress, much more work needs to be done. 
The following are four major recommendations. Some of these 
recommendations were developed in collaboration with the Financial 
Services Sector Coordinating Council (FSSCC) and publicly released in 
early 2017.

    1. Encourage Regulators to Harmonize Cyber-Regulatory Requirements. 
Given that financial institutions are subject to numerous regulatory 
and supervisory requirements with respect to cybersecurity, protection 
of sensitive customer information, business resiliency, penetration 
testing, vendor management, etc., there is little need for additional 
regulation in this space. Instead, there is a need to reduce the burden 
of implementing regulations for financial firms. What the sector most 
needs now is a focused and coordinated effort among State, Federal, and 
global regulators to harmonize regulatory requirements. In so doing, 
this is a good opportunity to leverage the National Institute of 
Standards and Technology (NIST) Cybersecurity Framework.
    While regulatory requirements are a powerful and effective way to 
ensure that financial institutions have adequate controls in place, a 
growing challenge facing large and global financial institutions today 
is the need for greater coordination and harmonization among the 
regulatory agencies, within the United States and globally. This will 
help financial firms keep pace with new threats, new financial business 
process models, and the necessary skillsets to evaluate the 
intersection of those two for security and resiliency purposes. A 
common refrain we hear from senior executives and practitioners in 
large and global firms is the need for regulators to harmonize 
regulatory requirements at both the policy and examination levels to 
reduce unnecessary regulatory compliance burdens and to better focus 
limited resources to mitigate cyber-risks. In addition, it would help 
if the U.S. Congress and Administration enacted a consistent and strong 
data protection and breach notification law across State and national 
platforms.
    Related to this recommendation to harmonize regulatory 
requirements, we also encourage Congress and regulatory rulemaking 
bodies to integrate cyber-risk assessment into the legislation and 
rulemaking processes. Hence, Congress and regulatory rulemaking bodies 
should weigh the implications of concentrating sensitive data that will 
create new cyber-targets when evaluating potential legislation and 
rulemaking. The potential aggregation of personally identifiable 
information via the SEC Rule 613 Consolidated Audit Trail or retrieving 
highly sensitive penetration testing and vulnerability data on 
regulated institutions are examples of situations where care should be 
taken to avoid creating new risks and creative solutions should be 
sought collaboratively with industry.

    2. Leverage Authorities in the Cybersecurity Information Sharing 
Act of 2015 (CISA) and USA Patriot Act of 2001 to Implement More 
Effective Information Sharing Programs. FS-ISAC and others in the 
financial sector supported the enactment of the Cybersecurity 
Information Sharing Act of 2015 (CISA). CISA encourages sharing for a 
cybersecurity purpose and includes incentives to entice entities to 
share information, including protection from liability claims, 
exemption from disclosure laws and regulatory use, and antitrust 
exemption. CISA enables sharing of information including: malicious 
reconnaissance, methods to defeat controls or exploit vulnerabilities, 
security vulnerabilities, malicious cyber-command and control, 
exfiltration of data and other attributes related to cyberthreats.
    Mandated by the Cybersecurity Act of 2015, the Department of 
Homeland Security (DHS) developed a system to automate the sharing of 
threat indicators on a machine to machine basis. This system is called 
Automated Indicator Sharing or AIS and was put into service in 2016; it 
is free to use.
    AIS leverages two internationally recognized standards for sharing: 
One is the data standard called Structure Threat Information Expression 
(STIXT) and the other is the delivery standard known as Trusted 
Automated eXchange of Indicator Information (TAXIIT). Threat indicators 
include data like malicious IP addresses, email addresses associated 
with ransomware, phishing or social engineering attacks, known 
cybercriminal campaign information and much more.
    Representing its members, the FS-ISAC agreed to participate in the 
Automated Indicator Sharing (AIS) program on a trial basis in 2016. We 
have engaged in numerous collaborative technical discussions with DHS 
and Treasury concerning the AIS program over the past 2 years.
    FS-ISAC and member firms have provided direct and consistent 
feedback to DHS regarding the early implementations of the AIS program. 
This feedback includes the need for DHS to strongly structure vetting 
of AIS participants, the need to verify the integrity of data 
transmitted and received within AIS, and the importance of providing 
context around the information. DHS has indicated it has heard the 
financial sector's feedback and is taking steps to incorporate that 
feedback and has recently committed to delivering on improvements that 
add context to indicators, includes rated scoring of vetted sources, 
utilizes the latest version of STIX/TAXII standards, and ability for 
AIS recipients to screen sources and receive data only from sources 
that each recipient approves.
    We also encourage our U.S. Government partners to improve response 
time and the quality of shared information and analysis and to 
prioritize essential ``lifeline'' sectors in planning and event 
response. Focus Federal resources to assist those sectors whose 
operation is fundamental to the national defense and economy, such as 
financial services, electric power, and telecommunications, to mitigate 
against cyberthreats and to help in recovery. Continued private-public 
collaboration is required to develop the list of cyber-defense 
capabilities that can be used to respond to a significant cyber-
incident affecting the Nation's critical infrastructure. Ensure that 
the relevant members of the lifeline sectors receive the appropriate 
security clearances. Also, seek improvements in sharing classified 
information, passing clearances and collaborating with the private 
sector in a classified environment. Together with the communications 
sector and the electricity subsector, FS-ISAC led the development of a 
playbook for lifeline sectors, completed earlier this year. We began 
drilling it during Cyber Storm and the National Level Exercise and plan 
a Hamilton Series tri-sector exercise for it in the fall. One of the 
next steps involves expanding the lifeline sectors for which it would 
be applicable. Another is ensuring that the tri-sector playbook 
connects with plans the Federal Government would use during a 
significant incident. The U.S. Departments of Treasury, Homeland 
Security and Energy have seen the playbook, though further Government 
socialization and coordination remains.
    In addition, we encourage the U.S. Government to invest further in 
financial services-supporting infrastructure and risk-based cyber R&D. 
To ensure strong investment in the cybersecurity and resiliency of key 
Federal organizations, processes and systems essential to the 
functioning to the financial services system, it's important for the 
U.S. Government to assign clear responsibilities and increase 
significantly resourcing for efforts to detect, analyze and mitigate 
cyber threats to the financial system. This includes a dedicated effort 
within the Intelligence Community and an operational-level contingency 
planning, indications/warnings, and exercises program. It's important 
to fund cybersecurity defense and R&D initiatives commensurate with the 
risk that cybersecurity threats pose to the Nation's security, 
including funding to identify risks and mitigation techniques for 
emerging Internet of Things (IoT) and quantum computing technologies.
    Finally, we encourage the Financial Crimes Enforcement Network 
(FinCEN) to provide greater clarity on legal protections for financial 
institutions that want to share information in accordance with the USA 
Patriot Act. On November 30, 2016, FinCEN participated in a FS-ISAC-
sponsored webinar about information sharing on suspected money 
laundering. This interaction helped anti-money laundering (AML)-
regulated financial institutions better understand FinCEN's views of 
the potential risk mitigation opportunities available by sharing 
information about suspected money laundering under section 314(b) of 
the USA Patriot Act. Since the webinar, many of the financial 
institution executives who participated in the webinar, which was open 
to all AML-regulated financial institutions, have asked for written 
confirmation of the information that FinCEN officials provided 
verbally. Financial institutions indicated that written confirmation is 
necessary to encourage financial institutions to leverage the authority 
provided under section 314(b) of the USA Patriot Act. If FinCEN 
provides written guidance about what suspected money laundering and 
terrorist financing information can be shared with an association of 
approved financial associations under the USA Patriot Act Section 
314(b), then financial institutions that are members of an approved 
314(b) sharing information association would file Suspicious Activity 
Reports (SARS) with more actionable information. In turn this might 
enhance the U.S. Government's efforts to investigate, extradite and 
prosecute transnational cyber criminals.
    FS-ISAC provided a list of six questions and our understanding of 
the answers to FinCEN on numerous occasions and is still waiting for a 
response. FS-ISAC would like to request that FinCEN publicize the 
answers so financial institutions can reference these answers. This 
would provide financial institution executives with much needed 
assurances of FinCEN's views and thus encourage greater information 
sharing about suspected money laundering by financial institutions 
pursuant to section 314(b) and other U.S. laws that authorizing the 
sharing of suspected money laundering and suspected terrorist 
financing.

    3. Establish Cyber-Deterrence and Response Capabilities and 
Encourage Adoption of Global Cybernorms. The Congress and 
Administration should articulate how the U.S. Government will respond 
to certain types of attacks and how these actions might impact the 
financial-services sector and other critical infrastructure sectors. 
The U.S. Government should also increase efforts to extradite and 
prosecute cyber criminals. Attacks on the financial services industry 
and critical infrastructure should be considered a violation of an 
explicit global norm; violations of this norm should be pursued 
vigorously. The U.S. Government should also enable and expand cross-
sector, real-time and actionable cyber threat information sharing and 
situational awareness. The U.S. Government should also continue to 
engage with the global community to develop and adopt international 
norms of behavior that discourage targeting of financial institutions 
and other critical-infrastructure sectors.

    4. Support Efforts to Develop a Technology-Capable Workforce. The 
U.S. Government should partner with the private sector and academia to 
develop education and training programs to meet the business needs of 
today and tomorrow in addressing the significant shortage of cyber 
security professionals and the education system in producing enough 
skilled cybersecurity professionals.
CONCLUSION
    The financial sector has made a significant investment in 
cybersecurity, risk reduction and resilience. However, threats, 
vulnerabilities and incidents affecting the sector continue to evolve. 
Individual firms have responded by making significant investments in 
technology and risk reduction improvements at their respective 
companies. Collectively, the sector has made improvements in 
information sharing and made strides in focusing on systemic risk, 
mutual assistance, enhanced resiliency and consumer protection. While 
more needs to be done, including additional collaboration with 
Government and global partners, the financial sector is making good 
progress and on balance has invested heavily to protect the sector's 
assets and consumers' information from adversaries and cybercrime.
                                 ______
                                 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 
                  PREPARED STATEMENT OF PHIL VENABLES
             Chief Operational Risk Officer, Goldman Sachs
                              May 24, 2018
    Chairman Crapo, Ranking Member Brown, and other Members of the 
Committee, thank you for inviting me to testify at this hearing on 
Cybersecurity: Risks to Financial Services Industry and Its 
Preparedness. I appreciate the Committee's focus on such an important 
issue. My name is Phil Venables; I am the Chief Operational Risk 
Officer of Goldman Sachs. I have been with the firm 18 years and my 
first 16 years at the firm I was Chief Information Security Officer 
before moving into a wider role in our Risk Division.
    Today, I am going to provide my perspective on the cyber-threats 
the financial sector faces, the broader technology risk landscape, the 
need for shared defenses and what can be done to keep improving the 
security and resilience of the financial system. A number of factors 
are contributing to increased inherent risk across the sector 
including, but not limited to, the increased digitalization of 
financial services and the globally interconnected nature of the 
financial system. The same trends that are increasing benefits of a 
global financial system are also bringing on these new and enhanced 
risks.
    First on threats, it will probably come as no surprise that the 
financial sector, globally, is targeted by a wide range of 
cybersecurity threats including from organized criminal groups with 
financial motivation as well as nation states for a broad array of 
reasons.
    Additionally, it is worth reminding ourselves that cybersecurity is 
not the only risk to information or technology systems. Risks posed 
from software errors, misconfiguration, outages and other resiliency 
issues can also cause as much impact as cybersecurity events.
    It is critical to have shared defenses across the financial sector 
so that all institutions, large and small, can learn from each other's 
best practices and so that threat information can be shared among 
firms, reducing the likelihood attackers can execute their strategies 
without response.
    We have a long history of robust information-sharing processes, 
with the FS-ISAC acknowledged as a preeminent example of such 
capability. Additionally, we have established tighter coupling between 
systemically important institutions through the Financial Systemic 
Analysis and Resilience Center, the so called FS-ARC. In addition, the 
sector's coordinating council under the Department of Treasury's 
leadership have proved instrumental in increasing sector resilience. 
Formalized sector-wide drills and exercises have spawned other 
initiatives, like Sheltered Harbor--an approach for firms to ensure the 
maintenance of immutable data vaults.
    Turning our attention to regulators and regulation, we benefit from 
a number of strong regulators across the financial sector that 
stipulate cybersecurity and other controls that reduce the risk of 
major incidents. This includes regular examinations and reviews. We 
continue to support the need for harmonization of regulation, 
domestically and globally, and we commend the efforts to date on the 
use of the NIST Cybersecurity Framework. Additionally, we should be 
watchful for unintended detrimental consequences to cybersecurity from 
noncybersecurity legislation or regulation.
    Notwithstanding the strong relationship on this issue between the 
public and private sectors, we continue to examine ways to enhance 
coordination. For instance, there is room for improvement in the 
responsiveness to financial sector Requests for Information. The 
establishment of the DHS National Cybersecurity and Communications 
Integration Center (NCCIC) in 2009 created the ability to have 
financial sector representatives in a cleared, collaborative space 
working directly with partners from Government and other industries for 
common purpose. Collaboration,
engagement, responsiveness, between and among DHS, other U.S. 
Government and industry partners continues to improve as relationships 
build and partners are better able to understand each other's 
information needs. We would propose that metrics be established between 
the Government and financial sector to quantify and validate the flow, 
value and timeliness of information shared between the financial sector 
and public sector to quantify the state of these relationships.
    Despite all this coordination and response to cybersecurity 
threats, risk still remains and we need to continue to be vigilant to 
adjust the defenses of individual firms and the sector as a whole by 
making sure we adopt innovative approaches to protecting customer data 
and services as well as designing for resilience to reduce single 
points of failure and single focal points of attack.
    Finally, I would recommend all organizations that operate critical 
public services or protect customer data adopt strong defenses and 
security programs based on, at a minimum, the following approaches:

    1. Integrate cybersecurity into the fabric of organizations--from 
business risk management processes, strategy and product development to 
the foundation of how the technology is built and operated, including 
planning for resilience in the face of attacks. Sustaining 
cybersecurity is a first class business risk along with all other 
risks--beginning with the Board and executive leadership and through 
all levels of the enterprise.

    2. Improve capabilities amongst people, process and technology. 
There needs to be continued emphasis on the embedding of controls into 
critical technology products and services: we need secure products, not 
just security products. We should recognize that cybersecurity risk 
mitigation is not solely the responsibility of designated cybersecurity 
professionals but is, perhaps more importantly, in the domain of 
leadership, risk managers and engineers at all levels of organizations. 
I would support a national program to embed cybersecurity training into 
all academic and professional training and qualifications: we need more 
security-minded people, not just more security people. I fully endorse 
efforts to deal with the shortage of trained cybersecurity 
professionals to help manage these risks, but I also note that there is 
a wider issue related to the productivity of the cybersecurity 
professionals we already have and more needs to be done by Government 
and industry to improve tools, processes and the orchestration of 
defense across multiple platforms to get the most out of those people.

    3. Design for defensibility. Our goal should be to design our 
technology and information processing environments to be more 
inherently defendable and resilient in the face of attacks, and we have 
to keep examining our global supply chains for security issues and 
excess concentration risk on specific services or geographies.

    Thank you again Mr. Chairman for allowing me to provide this input 
into this important process and we remain committed to assisting 
further as needed. I'm happy to answer any questions you or the other 
Members may have at this time.
                                 ______
                                 
               PREPARED STATEMENT OF CARL A. KESSLER III
        Senior Vice President & Chief Information Officer (CIO)
                        First Mutual Holding Co.
                              May 24, 2018
    Chairman Crapo, Ranking Member Brown and distinguished Members of 
the Committee, thank you for the opportunity to testify before you 
today. I am pleased that the Committee continues to place a focus on 
cybersecurity risks and their implications to the financial system, 
businesses, and consumers.
    As Chief Information Officer of a holding company comprised of 
several mutual community banks, I will share the unique perspective of 
community banks on cybersecurity regulation, information sharing, 
community bank collaboration and customer transparency.
Cybersecurity Regulation
    Two key regulatory changes have positively improved the approach of 
community banks in managing cybersecurity risks. In the wake of the 
Dodd-Frank Act reforms, supervision of our affiliate banks migrated 
from the Office of Thrift Supervision (OTS) to the Office of the 
Comptroller of the Currency (OCC). The OCC has been consistent and 
adamant in raising all bank's readiness to address cybersecurity risks. 
Their outreach and guidance have yielded vast improvements in the cyber 
posture of community banks. In the last few years, the Federal 
Financial Institutions Examination Council (FFIEC) established the 
Cybersecurity Assessment Tool (CAT) for evaluating cyber controls in a 
uniform way among depository institutions.
    Both regulatory actions have created a firm, but fair, supervisory 
approach in responding to emerging threats. While some may question 
these changes on the grounds of cost and a ``one size fits all 
approach,'' it is indisputable that regulatory oversight protects both 
the banking system and the consumers. We have found that the regulators 
apply the FFIEC CAT tool in a manner consistent with the risk a bank 
poses. I believe that cybersecurity defenses and monitoring systems are 
integral infrastructure investments akin to those community banks have 
traditionally made in physical security safety. I encourage this 
Committee to continue its work with prudential regulators on these 
important matters.
    With respect to OCC supervision and the advent of the FFIEC CAT, I 
understand both the perspectives of regional banks and community banks, 
having served in leadership capacities in both. I am pleased regulators 
use the same information technology (IT) examiners and general 
framework at institutions of all sizes. These examiners possess a 
strong understanding of cybersecurity risks and the controls deployed 
to protect banks and consumers. For any institution there is an 
inherent baseline of risk and a set of fundamental controls needed to 
protect consumer information. The approach of using dedicated IT 
examiners and practices fosters continuous improvement in preventing 
and detecting cybersecurity threats at institutions of all sizes.
    At the same time, this approach also leads to ongoing dialogue with 
regulators. How much risk does our community bank present? What is most 
critical for the protection of our bank, our customers and our 
financial system? How should cybersecurity investment dollars be 
deployed? The FFIEC CAT helps institutions frame these risk questions. 
First, it provides a standard way to assess how much inherent risk an 
institution generates. Second, the FFIEC CAT provides guidelines for 
what controls might be appropriate to mitigate those risks.
    After completing our holding company's assessment in 2015, we 
concluded that our existing information security program was well-
aligned to the baseline expectations of the FFIEC CAT and, in fact, 
exceeded them. Subsequent actions focused our cybersecurity investment 
strategy to attain compliance with our level of risk and to address new 
threats as they arise.
    Prudential regulation in conjunction with the FFIEC CAT is 
important to our bank's cyber readiness. Highly trained examiners are 
critical to administering the CAT. Because of the nature of the threat 
environment and the rapidly evolving domain of cybersecurity controls, 
an exam is never a static, check-the-box activity. It is always a 
dynamic conversation. My recommendation to this Committee is to ensure 
the consistent availability of highly trained IT examiners whose skills 
are in high demand in both the public and private sectors.
    Another consideration for the Committee is to ensure that similar 
cybersecurity rigor exists among nonbank financial services companies. 
How do we safeguard customer data at companies outside the oversight of 
prudential regulators?
Information Sharing
    As the cyber threat landscape evolves, a critical enabler is timely 
access to information sharing of active threats with community banks, 
through public and private partnerships.
    To address the Committee's question of ``what more needs to be done 
by the private sector and Government to help protect companies' and 
consumers' information,'' we must first identify where the significant 
risks lie. According to the Independent Community Bankers of America 
(ICBA), 99.5 percent of all banks are community institutions, half of 
which have assets under $250 million.\1\ Almost all community banks do 
not operate an in-house transaction processing center. In other words, 
most community banks do not process customer transactions in their own 
data centers. They rely on a network of third-party service providers 
to deliver banking services. While maintaining primary accountability 
for safeguarding consumers' information, we rely on third-party 
providers including core processors, payments networks, and larger 
banks.
---------------------------------------------------------------------------
    \1\ See ICBA Stats & Facts available at http://www.icba.org/go-
local/why-go-local/stats-facts.
---------------------------------------------------------------------------
    Only a few core processors provide IT services, such as customer 
transaction processing, mobile banking, and Bank Secrecy Act/Anti-money 
Laundering solutions. All banks interact through networks (ATM, debit 
card, and ACH) which are the backbone of the payments system. Some 
large banks provide processing for community banks through white 
labeled correspondent services. Although community banks represent the 
largest segment of banks in number, the risks associated with 
technology operations are aggregated in the data centers of just a few 
core processors,\2\ payments networks and large banks.
---------------------------------------------------------------------------
    \2\ The top three core processors hold a 70 percent market-share 
although how much of that is conducted in their data center versus the 
banks' data centers is unclear. https://bankinnovation.net/2018/02/
fiserv-has-largest-u-s-marketshare-of-top-bank-core-processors/.
---------------------------------------------------------------------------
    Clearly, this concentration of IT services provides both advantages 
and challenges for managing community bank cybersecurity. The advantage 
is that through scale, the large service providers have more resources 
to address cyber threats. An additional benefit could also be realized 
if these providers acted transparently and shared cyber threat 
information with industry partnerships like the Financial Services 
Information Sharing and Analysis Center (FS-ISAC) and with their 
community bank clients.
    Core processors are active acquirers of technology companies and 
continually roll out new products. Although a core processor's 
information security plan may be sound today, each new acquisition 
introduces its own risk \3\ into the environment. Thus, risk is 
constantly shifting within a core provider, and by extension to 
community banks and consumers.
---------------------------------------------------------------------------
    \3\ In April, American Banker ran this story ``BankThink Banks are 
from Mars, fintechs are from Venus: Bridging the matchmaking gap'' by 
Terry Ammons which does a good job of representing the risks of a 
fintech acquisition; available at https://www.americanbanker.com/
opinion/banks-are-from-mars-fintechs-are-from-venus-bridging-the-
matchmaking-gap.
---------------------------------------------------------------------------
    I know our core processor is reviewed regularly by the OCC and 
FFIEC. We have limited access to the results of these reviews. If a 
bank were in the center of a significant event like a contract renewal 
or if there were a security breach in the recent past, the bank can 
request additional information. Community banks also have access to 
third-party audits conducted on a core processor's controls. Such a 
report is limited and only communicates if a core processor's controls 
are deemed effective. The actual number of breaches is typically not 
disclosed. Thus, a community bank must trust that if there is a 
significant pattern of breaches, its regulator will ensure that the 
causes are identified and remediated. The only way to know if a breach 
has occurred is if the bank is directly impacted or if the breach is 
significant enough to result in a news story that names a bank that 
happens to use that same service provider. Although these third parties 
are the stewards of our customer's information, we have very little 
insight into their overall security performance. In summary, law and 
regulation require banks to monitor closely the effectiveness of their 
service provider's controls related to cybersecurity and protecting 
nonpublic customer information. The current system relies on a high 
degree of blind trust in a service provider with limited transparency. 
This opaque approach runs contrary to best practices in information 
sharing and vendor management.
    To partially compensate for this lack of transparency, banks I 
manage use a third party to track the information security performance 
of critical providers. My desire is more transparency in how service 
providers protect our customer information. For example, one solution 
might be to create a cybersecurity scorecard aggregating data from many 
sources including regulatory reviews. Such an approach must be 
carefully weighed against a chilling effect on information sharing. 
This scorecard, properly executed by a trusted third party, would 
enable banks to make better choices as they select vendors and create 
positive momentum toward control improvements.
    It is important to explain what ``information sharing'' and 
``transparency'' mean to a community bank. The key for banks is that a 
comprehensive ecosystem of financial services providers shares threat 
information in real time to an entity qualified to analyze, verify, and 
communicate it immediately to a bank where it can be used to adapt its 
controls.
    FS-ISAC pioneered this kind of service and our bank was an early 
adopter. Upon validation of a threat by FS-ISAC, critical information 
such as the internet address of the attacker was automatically sent to 
our firewalls and blocked. This solution required our bank to setup a 
duplicative connection. Our ideal solution involves a close partnership 
between banks, our third-party service providers, a trusted third party 
and our security provider so that threats flow immediately to us via 
the existing mechanisms we have in place. The goal is to respond in 
seconds or minutes rather than days or weeks.
    The most critical factor in thwarting a cyberattack is speed. The 
technology continues to improve as machine learning and artificial 
intelligence become more prevalent. The technology though cannot act on 
data it does not have. Important questions remain regarding if, when, 
and how businesses can share threat and/or breach information. In my 
conversations within the industry, there is still a great reluctance to 
share information. Liability, contract and privacy concerns are the 
most often cited reasons. I would suggest this is a good time to 
reexamine the effectiveness of cyber security law particularly as it 
affects information sharing. Timely information sharing is foundational 
to the industry's ability to combat a cyber threat. It may be 
worthwhile to require that service providers share threat and breach 
information with an authorized, trusted third party. In consideration 
for this sharing requirement, this Committee could consider expanding 
safe harbor liability provisions for third parties who meet certain 
strict requirements. This would clearly enhance consumer information 
protections.
Community Bank Collaboration
    I would like to share a few unique and not-so-unique actions we 
have taken to help protect our customers. Established in 2015, our 
mutual holding company was founded on the belief that strong 
independent banks play a vital role in our
communities. As Ohio's largest independent, depositor-owned entity, we 
are faced every day with the cost, complexity and capacity required to 
implement an effective information security program. We believe that 
our holding company model leverages these capabilities with our 
affiliate banks in a manner that they otherwise could not afford, 
design, or staff. In our three affiliations we have preserved a local 
banking presence, improved security controls and done so at a minimal 
marginal cost for the holding company. This proves the cost savings for 
individual small banks is a game changer. We believe this is a real, 
practical example of the kind of collaboration envisioned by the OCC in 
their January 2015 paper ``An Opportunity for Community Banks: Working 
Together Collaboratively.''\4\
---------------------------------------------------------------------------
    \4\ https://www.occ.treas.gov/publications/publications-by-type/
other-publications-reports/pub-other-community-banks-working-
collaborately.pdf.
---------------------------------------------------------------------------
Customer Transparency
    Finally, when talking about transparency and information sharing, 
we tend to focus on companies and Government entities. In all instances 
however we need to put the consumer at the center of this discussion. 
We are encouraged by the ability of technology to empower our 
customers. For example, many of us receive real-time alerts regarding 
our debit cards or when our credit report changes. I know this hardly 
seems to address ``what more needs to be done,'' but keep in mind it's 
always about improving the speed at which we can detect and react to a 
threat. Giving consumers the tools and access to information makes us 
all safer.
    Transparency and information sharing with the consumer is 
paramount. A key challenge for banks is the complexity of customer 
notification and privacy laws that exist today. While clearly needed, 
the simplification and modernization of the relevant laws and 
regulations can enable information sharing and therefore enhance 
consumer protections. Certainly, any solution must guard against 
shifting the liability to consumers from those who failed to protect 
their data.
Conclusion
    Key takeaways:

  <bullet>  Continue supporting the regulatory review process and the 
        FFIEC CAT

  <bullet>  Encourage transparency regarding the effectiveness of the 
        security programs of the third-party service providers in our 
        financial system including nonbank entities

  <bullet>  Review the effectiveness of current cybersecurity law with 
        a focus on information sharing

  <bullet>  Review how the existing complexity of customer information 
        and privacy protections laws may be slowing down the exchange 
        of critical threat information

  <bullet>  Encourage community banks to collaborate

  <bullet>  Engage and empower the customer as a valued part of the 
        cybersecurity solution

    The best way to protect consumers is to increase transparency and 
information sharing within the financial services cybersecurity 
ecosystem. This Committee can help move this forward by encouraging the 
transparency of the performance of third-party service providers. You 
can also help by passing legislation which further encourages 
information sharing so that active threats are identified and mitigated 
in minutes.
    Thank you for the opportunity to testify before you today. I stand 
ready to work with you in any way that I can to protect consumers and 
our financial system and look forward to answering your questions.
                                 ______
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

RESPONSES TO WRITTEN QUESTIONS OF THE SENATE BANKING COMMITTEE 
                        FROM BILL NELSON

Q.1. Mr. Nelson, in your written testimony you requested 
greater clarity on legal protections for financial institutions 
that want to share information in accordance with the Patriot 
Act. What clarity would you like to see?

A.1. Under section 314(b) of the USA Patriot Act, financial 
institutions may share information when there is suspicion of 
money laundering and terrorist activity. This authority 
provides financial institutions with an opportunity to reduce 
money laundering and terrorism financing. However, doing so 
necessarily involves sharing personally identifiable 
information, such as names and account information.
    In the absence of specific legal guidance regarding the 
manner in which such information may be shared, banking 
attorneys have limited sharing to those instances in which 
money laundering or terrorist activity can be confirmed. It 
would be preferable to share such information earlier in the 
process, but liability concerns preclude it.
    For example, in the case of suspected money mule activity 
associated with business email compromise, banks have 
questioned FinCEN if payment information can be shared between 
approved financial institutions and an approved association of 
financial institutions under the safe harbor of section 314(b). 
FinCEN has
responded verbally that this information can be shared and 
encouraged the sharing to provide more complete information in 
SAR filing. FinCEN has not provided written guidance to this 
question. Sharing the information in this example by a large 
network of FinCEN-approved financial institutions would reduce 
risk to the financial institutions and their customers. Federal 
law enforcement would benefit from more complete SAR filing 
information that will lead to more effective investigations and 
prosecution of cyber criminals.

Q.2.-Q.3. A year and a half ago, William and Margaret Frederick 
sold their home in Ohio so they could buy a home in Las Vegas, 
Nevada. The couple expected to make a $216,000 profit on the 
sale. But, their real estate agent read a hacked email 
supposedly from William--the fake email had three L's in Bill 
instead of two--and sent the profit to the hacker. William was 
83 and Margaret 77. Someone stole the money they intended to 
live on in retirement. Real estate transaction fraud is a 
problem in Nevada and nationwide. Thieves wait for the right 
time to impersonate a bank or realtor and send you different 
wire transaction instructions. Estimates are as much as $400 
million a year in losses. What more can financial institutions 
do to prevent thieves from stealing people's down payments, 
earnest money and even the entire home payment if someone is 
buying a home for cash? Please identify the best
practices for realtors, title agents and mortgage brokers? One 
way to protect consumer's information is to not collect it. For 
example, why should merchants of any sort, including doctors, 
insurance companies and utilities, require social security 
numbers as part of their information or data-set on their 
customers? Should we limit Social Security numbers provided to 
merchants?

A.2.-A.3. In this example, it appears that criminals, using 
money mules to launder the funds, stole the money. When banks 
discover this type of potentially criminal activity they are 
required to file Suspicious Activity Reports (SAR) with FinCEN. 
While banks want to share this suspicious activity within a 
network of FinCEN-approved financial institutions under the 
protections of section 314(b) of the USA Patriot, some banks 
are reluctant to share this suspicious activity because FinCEN 
has not provided written guidance. If banks had network 
intelligence about active money mule accounts in the Nevada 
case, the money transfer to the criminals may have been delayed 
and investigated by the bank staff. A bank investigation could 
then lead to the money transfer being stopped.
    Closing attorneys, mortgage brokers and title companies 
should be encouraged to join an ISAC for their industry. Given 
that criminals change tactics regularly, it's helpful for 
communities to share information about these tactics and 
effective risk mitigation measures. This ``strength in 
sharing'' approach goes a long way in protecting the companies 
and their customers. In addition, collaboration with law 
enforcement agencies are also effective in educating the 
community and sharing tips. For example, the FBI's Internet 
Crime Complaint Center (IC3) has published numerous 
publications, including this one in May 2017 on tactics for 
defending against business email compromise (BEC): https://
www.ic3.gov/media/2017/170504.aspx. The recommendations below 
come from the IC3 report referenced in the link.
    Businesses with an increased awareness and understanding of 
the Business Email Compromise (BEC) scams are more likely to 
recognize when they have been targeted by BEC fraudsters. 
Therefore, they are more likely to avoid falling victim and 
sending fraudulent payments. Businesses that deploy robust 
internal prevention techniques at all levels (especially for 
front line employees who may be the recipients of initial 
phishing attempts) have proven highly successful in recognizing 
and deflecting BEC attempts. Some financial institutions 
reported holding their customer requests for international wire 
transfers for an additional period of time to verify the 
legitimacy of the request.
    The following list includes self-protection strategies:

  <bullet> LAvoid free web-based email accounts: Establish a 
        company domain name and use it to establish company 
        email accounts in lieu of free, web-based accounts.

  <bullet> LBe careful what you post to social media and 
        company websites, especially job duties and 
        descriptions, hierarchal information, and out-of-office 
        details.

  <bullet> LBe suspicious of requests for secrecy or pressure 
        to take action quickly.

  <bullet> LConsider additional IT and financial security 
        procedures, including the implementation of a two-step 
        verification process. For example:

    <bullet> LOut-of-Band Communication: Establish other 
        communication channels, such as telephone calls, to 
        verify significant transactions. Arrange this two-
        factor authentication early in the relationship and 
        outside the email environment to avoid interception by 
        a hacker.

    <bullet> LDigital Signatures: Entities on each side of a 
        transaction should utilize digital signatures. This 
        will not work with web-based email accounts. 
        Additionally, some countries ban or limit the use of 
        encryption.

  <bullet> LImmediately report and delete unsolicited email 
        (spam) from unknown parties. DO NOT open spam email, 
        click on links in the email, or open attachments. These 
        often contain malware that will give subjects access to 
        your computer system.

  <bullet> LDo not use the ``Reply'' option to respond to any 
        business emails. Instead, use the ``Forward'' option 
        and either type in the correct email address or select 
        it from the email address book to ensure the intended 
        recipient's correct email address is used.

  <bullet> LBeware of sudden changes in business practices. For 
        example, if a current business contact suddenly asks to 
        be contacted via their personal email address when all 
        previous official correspondence has been through 
        company email, the request could be fraudulent. Always 
        verify via other channels that you are still 
        communicating with your legitimate business partner.

  <bullet> LCreate intrusion detection system rules that flag 
        emails with extensions that are similar to company 
        email. For example, a detection system for legitimate 
        email of abc_company.com would flag fraudulent email 
        from abc-company.com.

  <bullet> LRegister all company domains that are slightly 
        different than the actual company domain.

  <bullet> LVerify changes in vendor payment location by adding 
        additional two-factor authentication, such as having a 
        secondary sign-off by company personnel.

  <bullet> LConfirm requests for transfers of funds. When using 
        phone verification as part of two-factor 
        authentication, use previously known numbers, not the 
        numbers provided in the email request.

  <bullet> LKnow the habits of your customers, including the 
        details of, reasons behind, and amount of payments.

  <bullet> LCarefully scrutinize all email requests for 
        transfers of funds to determine if the requests are out 
        of the ordinary.

Q.4. What other sorts of information should financial 
institutions or others STOP collecting?

A.4. Financial institutions collect information to identify 
individuals, assess credit worthiness and maintain security. 
This detailed collection of personal information is required by 
law and regulation. This personal information is required to be 
protected by the Gramm-Leach-Bliley Act of 1999 (GLBA) and the 
regulations issued by numerous financial regulatory agencies. 
Financial institutions are examined by bank regulators to 
determine if the information collected is adequate and 
appropriate. Regulatory examiners also review the security of 
this personal information in compliance with GLBA. Bank 
regulators may be more knowledgeable in answering the question, 
what information should banks stop collecting?''

Q.5. What are the pros and cons of a Federal data breach law?

A.5. I fully support handling data breaches in a manner that 
safeguards customer data, addresses breaches expeditiously, and 
properly involves law enforcement so as to bring bad actors to 
justice. One means of achieving this would be to create a 
Federal data breach law that would eliminate the possibility of 
a plethora of regulatory and/or State laws on the subject, some 
of which would prove inconsistent and contradictory in part. 
The current development of cybersecurity law is hindered by 
such problems, leading the financial sector to pursue efforts 
to harmonize such Federal and State laws.
    One concern with a Federal approach is its possible effect 
on smaller organizations, such as community banks and credit 
unions. A Federal law should not be tailored to the largest, 
global institutions, but should be flexible enough to apply to 
smaller entities without burdening them.

Q.6. How should Federal data breach laws coexist with other 
international laws?

A.6. Whether regulatory, State, Federal, or foreign, 
cybersecurity rules generally, and data breach laws 
specifically, should be reasonable, consistent, and harmonized. 
Firms will increasingly be subjected to the laws of many 
nations in the growing global economy. We must do our best in 
this environment to facilitate the flow of commerce, while also 
protecting consumer data and responding appropriately and 
effectively to any breach of that data. In this situation, NIST 
may be able to play an important role.

Q.7. Firms that fail to secure their data pay substantial 
penalties. Hundreds of hackers go to prison. The woman [Paytsar 
Bkhchadzhyan] who hacked into Paris Hilton's accounts and stole 
her credit card information received a 5-year prison term. 
Taylor Huddleston (26) of Arkansas was sentenced to serve 
nearly 3 years for building and selling a remote access Trojan 
(NanoCore) to hackers. Can you give me some examples of fines, 
penalties and sentences for firms and individuals that engaged 
in cyber theft? Are these costs an appropriate deterrent?

A.7. Aleksandr Andreevich Panin and Hamza Bendelladj were 
sentenced to a combined 24 years and 6 months in prison for 
their roles in developing and distributing the SpyEye banking 
trojan, a powerful botnet similar to the ZeuS malware. Both 
hackers were charged with stealing hundreds of millions of 
dollars from banking institutions worldwide. The Department of 
Justice characterized SpyEye as a ``preeminent malware banking 
Trojan,'' which was used to infect over 50 million computers 
worldwide from 2010 to 2012, causing nearly $1 billion in 
financial losses to individuals and financial institutions 
globally.
    I support the sentences handed down in this case, which 
were justified and tailored to deter other hackers. However, 
the allure of stealing hundreds of millions of dollars while 
ensconced in safe havens from which arrest and conviction are 
unlikely render lengthy sentences, as well as fines, 
insufficient deterrents. The relative ease and low cost of 
cyber crime is unlikely to abate without greater cooperation 
among international law enforcement agencies. Moreover, where 
nation states are involved, the Federal Government should play 
a greater role in deterrence and enforcement.

Q.8.-Q.10. Seventy-seven percent of cyber attacks come from the 
outside. Yet sometimes, figuring out who the hackers were is 
hard to figure out. Hackers can spoof evidence. They can embed 
other hackers' tools. How big of a problem is figuring out 
attribution for hacks? Are there ways we can enhance 
information sharing between industry and the Federal Government 
to enable more rapid detection and response to cyber attacks? 
What tools or resources would make it easier for financial 
institutions to correctly attribute cyber-attacks?

A.8.-A.10. Obfuscation techniques adopted by threat actors can 
inhibit timely and accurate attribution. Many cyber defenders 
can be more interested in learning threat actor tactics, 
techniques, and procedures which will help to detect anomalous 
activity than the threat actor origin. Attribution for the 
private sector can be most helpful, however, in identifying 
adversary intent. Armed with knowledge of intent, the financial 
sector can put additional monitors on systems. Furthermore, 
while the private sector is reliant on many sources of 
information, Government is uniquely situated to assess intent 
with the greatest credibility based on its intelligence sources 
and methods. Perhaps the most valuable way to alert the private 
sector about threat actor attribution and intent is through 
timely declassification of intelligence, or to provide 
requisite clearances and classified exchanges for industry 
professionals who can make security decisions within their 
organizations. Likewise, timely information on changes in known 
adversary methods and tools is also helpful in correctly 
attributing activity. Many financial institutions do not have 
the resources to independently attribute cyber activity and are 
reliant on timely Government releases or attribution provided 
by vendors.

Q.11. In 2015, French-language TV station, TV5Monde was 
subjected to a significant cyber-attack which disrupted its 
broadcast for several hours by Fancy Bear. These are the same 
Russian government and military hackers that hacked the 
Democratic National Committee. Multiple television channels 
went dark. Social media channels run by the broadcasters began 
to spew ISIS propaganda. The attack was the work of Russian 
hackers which pretended to be ISIS. Russian government hackers 
also attacked the World Anti-Doping Agency, the power grid in 
Ukraine and the French electorate with another document dump. 
How significant is the threat to private businesses--from 
hostile foreign governments or terrorist organizations?

A.11. Nation-state-sponsored activity is a top concern of 
financial firms. While the majority of the financial sector 
most commonly sees criminal activity, the risk of impact posed 
by nation-state
actors is much greater. Furthermore, cyber criminals typically 
seek to steal funds, but have a vested interest in keeping the 
financial infrastructure intact. Nation states could have more 
nefarious intentions to disrupt the functions of the financial 
system in an effort to impact the U.S. economy. Businesses are 
reliant on the integrity of third parties and other critical 
infrastructure dependencies_such as electricity, 
communications, water, etc._in order to keep their businesses 
running. Nation-states have seemingly been the most interested 
threat actors in disrupting or destroying these functions, 
evidenced in part by NotPetya, WannaCry, and Shamoon attacks.

Q.12. Some of the lessons from that attack was documenting IT 
processes, restricting access to IT processes, and keeping 
communications separate from incident responses. What should 
businesses do now to prepare for a possible attack in the 
future?

A.12. Thoughtful and exercised incident response plans are 
encouraged for all financial institutions. The plans should 
involve multiple offices within the organization including 
security, legal, communications, business resilience and 
executive leadership. Incident response plans can aid in more 
accurate and prompt information sharing, as well.
    Businesses should also focus on the security of their 
third-party suppliers and remain in an active dialogue about 
their security practices. The prevalence of third-party risks, 
such as digital supply chain attacks, has increased as attack 
surface expands through use of the cloud and online services. 
Such attacks can affect institutions of all kinds, even those 
with robust cybersecurity measures in place. As evidence, 
NotPetya was initially distributed via a compromised accounting 
software update from the provider's server and, separately, 
malicious actors leveraged compromised credentials and malware 
to corrupt another software provider's updates to distribute 
malicious data-stealing code. Further, a USG Technical Alert 
released this year shed light on ongoing campaigns affecting 
critical infrastructure sectors which compromised staging 
targets, such as third-party suppliers, with less secure 
networks to reach intended victims.
                                ------                                


RESPONSE TO WRITTEN QUESTION OF SENATOR JACK REED FROM MICHAEL 
                             DANIEL

Q.1. In your written testimony, you stated that:

        the Government can facilitate disclosure of information that 
        can help customers, clients, shareholders, and other relevant 
        parties take appropriate defensive actions, better assess risk, 
        and advocate for improved security. Examples of such 
        requirements could include data breach reporting, information 
        about material cybersecurity risks on financial statements, and 
        public acknowledgements about how a publicly traded company is 
        assessing and managing its cyber risk, particularly at the 
        board of director's level. Such disclosures do not assist 
        criminals or other bad actors--they already know where the 
        weaknesses are; instead these requirements allow market forces 
        to operate more efficiently.

Could you please go into greater detail about how cybersecurity 
disclosure would allow market forces to operate more 
efficiently?

A.1. Right now, consumers often lack information about a 
product or service's cybersecurity. As a result, they cannot 
factor that
information into a purchasing decision. Just as with disclosing 
calorie counts in food products, if consumers had more access 
to information they could use that information to make better 
choices. And if some consumers began to discriminate among 
products or services based in part on their cybersecurity, then 
producers and suppliers would have an incentive to create more 
secure outputs.
                                ------                                


   RESPONSE TO WRITTEN QUESTION OF SENATOR MARK WARNER FROM 
                         MICHAEL DANIEL

Q.1. Is verifying that financial institutions have an internal 
cybersecurity audit function or an independent third-party 
assessment sufficient, or should financial regulators develop 
their own view of the cybersecurity posture of supervised 
entities in addition to requiring independent third-party 
assessment?
    Are you and others in the industry seeing an uptick in 
interest from regulators in cyber risk? What issues do 
regulators focus on in their examinations?
    What do you believe is the appropriate role of the 
financial regulators in assessing the cybersecurity of 
institutions they regulate?

A.1. I believe that regulators should largely rely on third-
party assessments, rather than trying to develop the capability 
in-house to conduct reviews at the scale required for our 
financial sector. That said, financial regulators should have 
staff capable of interpreting those assessments and determining 
whether the assessment demonstrates that the institution is 
meeting its requirements.
    I cannot speak to what financial regulators focus on in 
their examinations but I can suggest the Committee explore the 
oversight and examination material of the financial regulatory 
agencies and bodies such as the Federal Financial Institutions 
Examination Council.
    The key issue is whether the institution is appropriately 
considering systemic risk as well as the immediate risk to the 
company in managing its cybersecurity. Institutions have an 
incentive to ensure that they can conduct business, maintain 
customers, and preserve their reputation. However, the 
incentives are not strong enough on their own for the 
institution to invest in cybersecurity that in turn helps drive 
down risk across the sector (and therefore to the broader 
economy) as a whole. That's where--systemic risk to the broader 
sector and economy--the Government regulators should focus.
                                ------                                


  RESPONSES TO WRITTEN QUESTIONS OF SENATOR CORTEZ MASTO FROM 
                         MICHAEL DANIEL

    A year and a half ago, William and Margaret Frederick sold 
their home in Ohio so they could buy a home in Las Vegas, 
Nevada. The couple expected to make a $216,000 profit on the 
sale. But, their real estate agent read a hacked email 
supposedly from William--the fake email had three L's in Bill 
instead of two--and sent the profit to the hacker. William was 
83 and Margaret 77. Someone stole the money they intended to 
live on in retirement.
    Real estate transaction fraud is a problem in Nevada and 
nationwide. Thieves wait for the right time to impersonate a 
bank or
realtor and send you different wire transaction instructions. 
Estimates are as much as $400 million a year in losses.

Q.1. What more can financial institutions do to prevent thieves 
from stealing people's down payments, earnest money and even 
the entire home payment if someone is buying a home for cash? 
Please identify the best practices for realtors, title agents 
and mortgage brokers?

A.1. Although the Internet often makes fraud easier to 
perpetrate, the best practices to combat cyber-enabled fraud 
are often the same in other domains. I would point to 
references like the Federal Trade Commission, the Financial 
Crimes Enforcement Network, the Federal Bureau of 
Investigation_Financial Institution Fraud division, the 
Financial Services Information Sharing and Analysis Center, and 
similar organizations that lay out best practices to combat 
fraud.

    One way to protect consumer's information is to not collect 
it. For example, why should merchants of any sort, including 
doctors, insurance companies and utilities, require social 
security numbers as part of their information or data-set on 
their customers? Should we limit Social Security numbers 
provided to merchants?

  <bullet> LWhat other sorts of information should financial 
        institutions or others STOP collecting?

  <bullet> LState and International Laws Relating to 
        Cybersecurity

  <bullet> LWhat are the pros and cons of a Federal data breach 
        law?

  <bullet> LHow should Federal data breach laws coexist with 
        other international laws?

A.2. The first step in managing cyber risk more effectively is 
understanding your information environment: what information 
does your organization hold and why is it holding it? An 
organization should only hold and manage information for which 
there is a legitimate business purpose, and it should only hold 
that information for as long as needed for the business purpose 
(or according to law, if the organization has legal obligations 
for data retention). Thinking through these questions will 
enable an organization to determine what information it really 
needs to collect and store, and then how long it needs to 
retain that information.
    In terms of digital identity and how best to conduct 
identity proofing without relying on social security numbers, I 
would recommend that the Committee look at research being done 
related to digital verification processes in cyberspace. Some 
examples of this work and related suggestions can be found at 
the National Strategy for Trusted Identities in Cyberspace 
(NSTIC) and the Better Identity Center here in Washington, DC.

Q.3. Firms that fail to secure their data pay substantial 
penalties. Hundreds of hackers go to prison. The woman [Paytsar 
Bkhchadzhyan] who hacked into Paris Hilton's accounts and stole 
her credit card information received a 5-year prison term. 
Taylor Huddleston (26) of Arkansas was sentenced to serve 
nearly 3 years for building and selling a remote access Trojan 
(NanoCore) to hackers.
    Can you give me some examples of fines, penalties and 
sentences for firms and individuals that engaged in cyber 
theft? Are these costs an appropriate deterrent?

A.3. This specific question falls outside my area of expertise. 
However, measuring deterrence is always challenging, whether in 
the physical world or in cyberspace.

Q.4.a. Seventy-seven percent of cyber attacks come from the 
outside. Yet sometimes, figuring out who the hackers were is 
hard to figure out. Hackers can spoof evidence. They can embed 
other hackers' tools.
    How big of a problem is figuring out attribution for hacks? 
Are there ways we can enhance information sharing between 
industry and the Federal Government to enable more rapid 
detection and response to cyber attacks?

A.4.a. Attribution remains a challenging endeavor for multiple 
reasons. First, attribution involves combining technical 
capabilities, data from a number of victims, and considerable 
time. While the U.S. Government and cybersecurity companies 
have improved their attribution capabilities significantly, 
even these organizations have to invest considerable resources 
into this work. Second, even if cybersecurity companies can 
attribute malicious activity to a particular group or 
adversary, taking the next step of tying that attribution to an 
individual in the real world is even harder.

Q.4.b. What tools or resources would make it easier for 
financial institutions to correctly attribute cyber-attacks?

A.4.b. We can definitely improve information sharing between 
the Federal Government and the private sector. In particular, 
we need to build the technical mechanisms, the business 
processes, and the legal understandings to enable this exchange 
to occur at both machine speed and at human speed.
    Financial institutions may not be able to attribute most 
malicious activity on their own and it may not be in their best 
interest to do so. However, they can provide forensic and other 
data that can help organizations, such as threat researchers 
and Government agencies that can make the attribution.

Q.5. In 2015, French-language TV station, TV5Monde was 
subjected to a significant cyber-attack which disrupted its 
broadcast for several hours by Fancy Bear. These are the same 
Russian government and military hackers that hacked the 
Democratic National Committee. Multiple television channels 
went dark. Social media channels run by the broadcasters began 
to spew ISIS propaganda. The attack was the work of Russian 
hackers which pretended to be ISIS. Russian government hackers 
also attacked the World Anti-Doping Agency, the power grid in 
Ukraine and the French electorate with another document dump.
    How significant is the threat to private businesses--from 
hostile foreign governments or terrorist organizations?

A.5. Criminal actors conduct the overwhelming majority of 
malicious activity online and, as a result, are the primary 
cybersecurity threat to most businesses.
    However, the threat from nation-state actors is very real 
and organizations should take it seriously. Fortunately, the 
best practices that work against criminal organizations can 
also impede nation-state actors. Therefore, companies should 
focus on implementing cybersecurity best practices, regardless 
of the adversaries they face.
    The threat from most terrorist organizations remains fairly 
nascent. Terrorist groups are effective at using the Internet 
as a recruiting platform, but their ability to use it to carry 
out operations remains limited. Some groups attempt to hack 
into companies to expose private information, but few have the 
capability to do more than that right now. However, given 
terrorists' high motivation to cause damage, if a nation-state 
decided to supply a terrorist organization with malware or 
other tools, that group's capability to cause harm could grow 
rapidly.

Q.6. Some of the lessons from that attack was documenting IT 
processes, restricting access to IT processes, and keeping 
communications separate from incident responses.
    What should businesses do now to prepare for a possible 
attack in the future?

A.6. All organizations should adopt a holistic risk management 
approach and that should include managing their cyber risk. 
Best practices for managing cyber risk have been promulgated in 
the Cybersecurity Framework published by the National Institute 
of Standards and Technology and in collaboration with the 
private sector and other Government agencies. Such an approach 
can guide an organization to understand its information assets 
and business processes; invest in more effective protections; 
have a capability to detect when malicious activity is 
occurring; develop an incident response plan for when bad 
events occur; and create a plan for restoring business 
operations as soon as possible. Adopting a holistic approach is 
the most effective way a company can prepare for malicious 
cyber activity.
                                ------                                


  RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARNER FROM PHIL 
                            VENABLES

Q.1. How do banks--much less regulators--evaluate and manage 
risk of IT environments that combine not only third-party 
software and products, but also decades-old legacy IT?

A.1. Third-party software and hardware risk is an ongoing 
challenge requiring institutions to have clear policies and 
practices to manage the risk of third-party products in the 
environment. In more sophisticated organizations a risk 
assessment, code analysis and operational penetration testing 
may be conducted to ensure any critical and externally facing 
applications and platforms are appropriately hardened.
    Legacy IT infrastructure risk is a challenge facing many 
medium-to-large organizations. Most financial institutions have 
been required by Federal regulators to conduct an appropriate 
risk analysis of their IT environment to identify that 
infrastructure which is not able to have software patches 
applied to address current vulnerabilities and threats. 
Sophisticated organizations prioritize protection and 
remediation of these legacy environments based on relative risk 
of the platforms and technology. Externally facing
systems are generally the priority for remediation and Federal
regulators will generally require evidence of an appropriate 
ongoing vulnerability management and vulnerability scanning 
program to ensure that high-risk vulnerabilities are adequately 
being managed.
    Effectively managing third-party and legacy infrastructure 
risk is predicated on the organization having up-to-date 
inventories of hardware and software and understanding the 
associated risks. This can be challenging in large, global 
organizations and requires significant and ongoing discipline 
with appropriate policies and practices to ensure consistency.

Q.2. Could the kind of meltdown we're seeing in the United 
Kingdom with TSB Bank happen in the United States as a result 
of an IT migration?

A.2. Public reporting on the TSB Bank incident indicates the 
issue was caused by a variety of failures in the organization's 
testing, change management, migration, communications and 
regulatory engagement processes.
    The migration of such a large volume of customers (5.2 
million) in one activity is a significant risk. There is no 
public information available as to what testing took place 
behind the scenes prior to the upgrade and what processes 
failed in the transition so our ability to assess what went 
wrong in the migration is extremely limited. Media reporting 
also indicates TSB, and parent company Banco Sabadell, declined 
assistance from Lloyd's early in the migration crisis.
    Sound change management policies and practices, exercised 
and comprehensively tested using a phased migration approach 
are clear recommendations for any complex or significant 
migration or upgrade. For significant changes and migrations it 
is recommended to have a prepositioned communications plan 
supporting clear and transparent customer and regulatory 
notification should issues be encountered.
                                ------                                


  RESPONSES TO WRITTEN QUESTIONS OF SENATOR CORTEZ MASTO FROM 
                         PHIL VENABLES

Q.1. What more can financial institutions do to prevent thieves 
from stealing people's down payments, earnest money and even 
the entire home payment if someone is buying a home for cash? 
Please identify the best practices for realtors, title agents 
and mortgage brokers?

A.1. Fannie Mae and Freddie Mac provide comprehensive resources 
including fraud mitigation best practices to provide guidance 
for all entities in the mortgage transaction flow.

    https://www.fanniemae.com/singlefamily/mortgage-fraud-
prevention

    http://www.freddiemac.com/singlefamily/fraud.html

    http://www.freddiemac.com/singlefamily/pdf/fraudprevention
_practices.pdf

    Small- to medium-sized organizations supporting mortgage 
services should review and follow cybersecurity best practices, 
such as those offered by the ``Staysafeonline'' website 
maintained by the National Cybersecurity Alliance, in order to 
provide appropriate protection for the personal identifying and 
bank account information they collect. Public reporting 
indicates some mortgage brokers and smaller organizations may 
be utilizing public email services for transacting business 
that if compromised could allow identity theft and fraud. 
Businesses should conduct a security review of their email 
accounts based on the provider's recommendations and implement 
the appropriate enhanced security offerings for these email 
services.

    https://staysafeonline.org/cybersecure-business/

    https://landing.google.com/advancedprotection/

    https://help.yahoo.com/kb/SLN5013.html

    Fannie Mae and Freddie Mac further offer recommendations 
for consumers around red flags that may be indicative of fraud 
during mortgage transactions. One significant indicator of 
attempted wire transfer fraud may be an unexpected email 
indicating a late change to the payee/beneficiary account 
information prior to an upcoming funds transfer. The safest 
course for consumers is to not trust any wire transfer 
instructions received via email and to validate all financial 
details via phone call to a confirmed number that was not 
provided in any email communications.

    https://www.fanniemae.com/content/news/mortgage-fraud-news-
0116.pdf

    https://www.fanniemae.com/content/tool/mortgage-fraud-
prevention-consumers.pdf

    http://www.freddiemac.com/singlefamily/fraud.html

    http://www.freddiemac.com/perspectives/robb_hagberg/2017
0612_combating_mortgage_fraud.html

Q.2. What other sorts of information should financial 
institutions or others STOP collecting?

A.2. We support the adoption of the principle of ``data 
minimization'' under which a business should collect and 
process only such personal information as is necessary for it 
to achieve the task at hand, whether that be servicing the 
customer, complying with its own legal or regulatory 
obligations, or pursuing some other legitimate purpose.

Q.3. State and International Laws Relating to Cybersecurity

A.3. To date, most States have avoided the imposition of 
detailed, prescriptive requirements as to the safeguarding of 
personal and business related information opting instead for a 
high level, and more flexible, approach of requiring businesses 
to implement and maintain ``reasonable security procedures and 
practices'' appropriate to the nature of the information 
processed, the type of activities conducted, the size and 
complexity of the organization, etc. Notable exceptions to this 
general rule are Massachusetts, Nevada and, more recently and 
only as to organizations s under its supervision, New York 
State's Department of Financial Services.
    In general, the ``data protection'' laws outside of the 
United States are principles based, particularly as it relates 
to security controls. Although an obligation to maintain the 
security of
personal data is one of these principles, most countries have, 
like the majority of our states. These laws generally do not 
impose
prescriptive safeguarding obligations and instead taken the 
approach of imposing an obligation to implement ``appropriate 
technical and organizational measures'' to protect personal 
data. This approach is reflected in the E.U. General Data 
Protection Regulation which took effect late last month. Laws 
focusing on the protection of information other than personal 
data or on cybersecurity measures more generally have been less 
common. That trend changed, as to Europe at least, in 2016 with 
the adoption of the Network and Information Security Directive 
which was required to be implemented by E.U. Member States on 
or before May 9, 2018. The Directive is the first EU-wide piece 
of legislation concerning cybersecurity.

Q.4. What are the pros and cons of a Federal data breach law?

A.4. The main and very significant benefits of a Federal data 
breach notification law are consistency and efficiency. 
Although the State laws on this point share many similarities, 
there is enough divergence in the underlying requirements to 
make responding to an incident having a multi-State impact very 
challenging. Analysis of these differences across State laws 
and their application to the specific facts of each incident is 
time consuming and can result in unnecessary delay in notifying 
impacted individuals. A single requirement at the Federal level 
would promote consistency. Assuming a breach notification 
regime is to be required, there is very little downside in 
having this imposed at the Federal, rather than at the State, 
level.

Q.5. How should Federal data breach laws coexist with other 
international laws?

A.5. Individuals, regardless of where they are located, who are 
exposed to a significant risk of harm when their personal 
information is compromised due to a cybersecurity breach, 
should be apprised of that breach and given sufficient 
information to take the measures necessary to protect 
themselves. State breach notification laws have led the way in 
this regard and, with the inclusion of a breach notification 
requirement in the new General Data Protection Regulation, the 
European Union has now formally acknowledged the value of this 
principle. In light of this new E.U. requirement, it is more 
important than ever that the United States adopt a single 
breach notification regime nationwide in order to ensure that 
incidents having international impact are responded to 
promptly, consistently and efficiently.

Q.6. Can you give me some examples of fines, penalties and 
sentences for firms and individuals that engaged in cyber 
theft? Are these costs an appropriate deterrent?

A.6. Recent examples of sentencing and penalties for criminal 
groups and individuals are as follows:

  <bullet> LOn April 18 2018, Dwayne C. Hans of New York was 
        sentenced to 36 months in prison for attempting to 
        steal more than $3 million from the Pension Benefit 
        Guaranty Corporation, Defense Logistics Agency and 
        General Services Administration. He was ordered to pay 
        restitution of $134,000.00 for activities conducted 
        between July 2015 and October 2016, when he committed 
        fraud by impersonating an authorized representative of 
        a U.S. financial institution and a defense contractor. 
        Hans had previously pleaded guilty to one count of wire 
        fraud and one count of computer intrusion. https://
        www.justice.gov/usao-edny/pr/cyber-criminal-sentenced-
        36-months-prison-attempting-steal-more-3-million-
        financial.

  <bullet> LOn November 30, 2017, Russian cyber-criminal Roman 
        Valeryevich Seleznev aka Track2, Bulba and Ncux, was 
        sentenced to serve 168 months in prison for one count 
        of participation in a racketeering enterprise and 168 
        months in prison for one count of conspiracy to commit 
        bank fraud with the sentences to run concurrent to one 
        another. In both cases, Seleznev was ordered to serve 3 
        years of supervised release to run concurrently and 
        ordered to pay restitution in the amount of 
        $50,893,166.35 in Nevada and $2,178,349 in Georgia. 
        Seleznev pleaded guilty to the charges and admitted 
        affiliation with the Carder.su organization, an 
        Internet-based, international criminal enterprise whose 
        members trafficked in compromised credit card account 
        data and counterfeit identifications and committed 
        identity theft, bank fraud, and computer crimes. 
        https://www.justice.gov/opa/pr/russian-cyber-criminal-
        sentenced-14-years-prison-role-organized-cybercrime-
        ring-responsible.

  <bullet> LOn May 25, 2017, three Nigerian cyber actors were 
        sentenced for Federal offenses including mail fraud, 
        wire fraud, identity theft, credit card fraud, theft of 
        Government property, and conspiracies to commit bank 
        fraud and money laundering. The maximum penalty imposed 
        on a defendant was 115 years in prison and the minimum 
        sentence handed down was 25 years. Overall 21 
        defendants had been charged in the case which was led 
        by Homeland Security Investigations. The stronger 
        penalties were imposed due to the bank fraud and money 
        laundering elements of their activities. https://
        www.justice.gov/opa/pr/three-nigerians-sentenced-
        international-cyber-financial-fraud-scheme.

    Federal Judges may face difficulty in determining 
sentencing in cyber crime cases due to the broad types and 
scope of impact, including where there may be difficulty in 
articulating a direct financial loss. Based on sentencing 
guidelines from the Department of Justice, fraud cases where 
there is direct loss to specific victims are generally easier 
to determine than matters where there is no direct loss, such 
as theft of information. Further, in general charges asserted 
in most cyber crime cases are generally a subset of a broader 
array of activity by the perpetrator, and for some alleged 
crimes there may be only limited evidence for some crimes. 
Consequently, many cyber criminals may only ever be charged and 
sentenced based on a small subset of their overall criminal 
behavior, which in many cases stretches back over many years.
    Many overseas higher order cyber-criminal actors are 
unlikely to ever face prosecution and sentencing due to their 
location in countries that will not extradite or work with U.S. 
law enforcement. Further in some countries, advanced cyber 
criminals may present a potential asset to Government military 
and intelligence capabilities so there is even less incentive 
to proceed with prosecution. The use of cyber criminals to 
support state-sponsored cyber operations was publicly confirmed 
with the release of the indictment in the Yahoo email 
compromise incident. https://www.justice.gov/opa/pr/us-charges-
russian-fsb-officers-and-their-criminal-conspirators-hacking-
yahoo-and-millions.
    There is likely some deterrent value in stiff sentencing 
for cases, but the broad nature of offenses and diversity of 
sentencing is likely to present little deterrent to those 
adversaries located overseas, particularly if they have 
relationships supporting intelligence and military operations.

Q.7. How big of a problem is figuring out attribution for 
hacks? Are there ways we can enhance information sharing 
between industry and the Federal Government to enable more 
rapid detection and response to cyber-attacks?

A.7. The ability to potentially attribute cyber threat 
activities to a specific actor or series of actors varies 
greatly based on the type and impact of the incident. 
Attribution is generally a complex problem and an investigative 
challenge based on the availability of a set of technical 
fragments of evidence, which are aggregated, analyzed and 
compared against other cyber activities where the perpetrators 
have been identified with some degree of confidence.
    At the strategic level, where nation states are the primary 
threat actors, geopolitical context may suggest from an 
intelligence perspective that an adversary is responsible for a 
set of cyber threat activity that was triggered in response to 
specific event(s).
    Ability to attribute consequently varies between national 
security and purely criminal threats, with national security 
threat actors much more likely to be proactively monitored by 
the Intelligence Community. In criminal cases there is 
generally a requirement for significant forensic reconstruction 
of events to be able to coherently trace and attribute 
malicious activity. Further in the majority of cyber-criminal 
cases involving fraud and theft, following the network and 
financial transaction trails will generally lead overseas as 
criminals know that cross international jurisdictions 
substantially increases the complexity of investigation for 
U.S. agencies, particularly if some of the traffic is routed 
through countries which have tense or poor relations with the 
United States.
    Nation state military and intelligence services may also 
attempt to actively obfuscate and potentially misattribute 
activity.
    The financial sector has a variety of robust information 
sharing arrangements with U.S. Government agencies through 
sector associations including the Financial Services 
Information Sharing and Analysis Center (FS-ISAC) and Financial 
Systemic Analysis and Resilience Center (FSARC), and at the 
individual financial institution level. During the 2011-2014 
Distributed Denial of Service (DDoS) attacks the FS-ISAC and 
individual member institutions worked collaboratively and 
individually with the Government agencies to identify, 
attribute and mitigate cyber threat activities. That 
collaboration has continued through the current time.

Q.8. What tools or resources would make it easier for financial 
institutions to correctly attribute cyber-attacks?

A.8. To further clarify, the term cyber-attack is, at times, 
misused in the media which unfortunately confuses the issue of 
determining the actual objective of an adversary, which may be 
surveillance, theft, disclosure, manipulation/alteration or 
disruption/destruction, and much of which has distinctly 
different impacts to a victim organization.
    Attribution is generally a confidence weighted activity and 
the ability of a private institution, or group of institutions, 
to successfully attribute cyber activity varies greatly on the 
type of activity and the type of adversary. In nation-state 
cases, there may be geopolitical indicators which provide a 
level of inference lacking in other types of cyber activity.
    Publicly attributing cyber activity may present risk to any 
institution making the statements as an adversary may become 
particularly focused on that institution in response. This was 
seen during the 2012 DDoS attacks where an institution that 
publicly attributed the attacks in media to Iran was subjected 
to ongoing focus as a result.

Q.9. How significant is the threat to private businesses--from 
hostile foreign governments or terrorist organizations?

A.9. Nation states have conducted cyber-criminal, cyber 
espionage and cyber-attack actions against private sector firms 
globally.

Q.10. What should businesses do now to prepare for a possible 
attack in the future?

A.10. Businesses should understand the domestic and global 
operational risk environment in which they operate and have a 
clear view of which assets are at most cyber risk. They must 
adopt a defense-in-depth approach to cybersecurity that 
emphasizes a ``default deny'' approach and assesses 
organizational controls against most like adversary 
capabilities.
    Determining the identity, capabilities and likelihood of 
the most significant cyber adversaries an organization faces is 
an ongoing activity that can then be used to assess the 
adequacy of the controls against the threat's technical 
capabilities.
    This ability to conduct this risk analysis is predicated on 
the following organizational capabilities:

  <bullet> LIdentifying targeted campaigns against the 
        organization from broader activity targeting the 
        industry and Internet as a whole

  <bullet> LAnalyzing and attributing the campaigns that have 
        been previously observed and are currently being 
        observed

  <bullet> LAscertaining the adversary's objectives in the 
        campaigns

  <bullet> LUtilizing observations and threat intelligence to 
        develop a model of adversaries technical capabilities 
        and then prioritizing them based on the highest 
        technical capabilities

  <bullet> LModeling adversaries' capabilities against the 
        organization's control capabilities should result in a 
        residual risk assessment of the organization's 
        abilities to defend against their prioritized adversary 
        capabilities and highlight control gaps or deficiencies 
        that need enhancement.

More broadly this type of analysis should be conducted on an 
ongoing basis against the broader cyber threat environment to 
ensure the organization always understands its ability to 
mitigate current and developing cyber threats.
                                ------                                


RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARNER FROM BOB SYDOW

Q.1. Do regulators, who have the ability to supervise the banks 
and their relationships, but not the third-party vendors 
themselves, have sufficient authority to monitor these risks 
appropriately?
A.1. Regulators have been addressing the topic of third-party 
risk and the vendors across a number of dimensions, including 
but not limited to:

  <bullet> LIssuing guidance and requirements for outsourcing 
        risk and third-party risk management

  <bullet> LSetting expectations that regulated firms have 
        effective programs over their third parties to confirm 
        that they are fulfilling the firms' contractual, 
        compliance, consumer protection, legal and obligations

  <bullet> LExamination of how firms manage third parties--
        especially critical vendors--within the context of how 
        they assess and manage risks across various domains 
        (e.g., cyber, critical business processes, Recovery and 
        Resolution Planning).

    For example, the Office of the Comptroller of the Currency 
(OCC) has issued the following guidance for managing third-
party risk:

        When circumstances warrant, the OCC may use its authority to 
        examine the functions or operations performed by a third party 
        on the bank's behalf. Such examinations may evaluate safety and 
        soundness risks, the financial and operational viability of the 
        third party to fulfill its contractual obligations, compliance 
        with applicable laws and regulations, including consumer 
        protection, fair lending, BSA/AML and OFAC laws, and whether 
        the third party engages in unfair or deceptive acts or 
        practices in violation of Federal or applicable State law. The 
        OCC will pursue appropriate corrective measures, including 
        enforcement actions, to address violations of law and 
        regulations or unsafe or unsound banking practices by the bank 
        or its third party. The OCC has the authority to assess a bank 
        a special examination or investigation fee when the OCC 
        examines or investigates the activities of a third party for 
        the bank. (OCC Bulletin 2013-29.)

    Another example is:

        Guidance for Managing Third-Party Risk,'' FIL-44-2008, 
        published by the Federal Deposit Insurance Corporation. It 
        states in part: ``Review of third-party relationships 
        contributes to the FDIC's overall evaluation of management and 
        its ability to effectively control risk. Additionally, the use 
        of third parties could have a significant effect on other key 
        aspects of performance, such as earnings, asset quality, 
        liquidity, rate sensitivity, and the institution's ability to 
        comply with laws and regulations. Findings resulting from the 
        review of an institution's third-party relationships will be 
        addressed as needed in the Report of Examination. Appropriate 
        corrective actions, including enforcement actions, may be 
        pursued for deficiencies related to a third-party relationship 
        that pose a safety and soundness or compliance management 
        concern or result in violations of applicable Federal or State 
        laws or regulations. Financial institutions are reminded that 
        indemnity or other contractual provisions with third parties 
        cannot insulate the financial institution from such corrective 
        actions.

Q.2. Are regulators focusing on third-party vendor management 
in their examinations? Are you seeing increased enforcement or 
other critical action from regulators against banks due to 
insufficient compliance programs for third-party vendor 
management?

A.2. EY sees banking regulators conducting exams that include a 
specific focus on third-party vendor management. The focus of 
these exams is across topics ranging from governance, due 
diligence, risk assessment, ongoing monitoring, cyber, 
resiliency, contracting and the cataloging and inventory of 
third-party vendors.

Q.3. In its semiannual report in 2017, the Office of the 
Comptroller of the Currency noted that concentration in third-
party service providers, such as providers of enterprise 
software or security products and services, has increased 
cybersecurity supply chain risk. Do you agree with this 
assessment? Do you believe that there is a potential systemic 
risk issue with dependencies on key third-party vendors or the 
wide use of certain software? Should regulators require a 
software bill of materials to understand what's inside third-
party IT products?

A.3. A number of factors are contributing to an increase of 
cybersecurity supply chain risk including: emerging 
interconnected technologies that drive fundamental 
transformations and create complex third-party ecosystems; the 
volume, velocity and precision of attacks; and the shortage of 
cybersecurity resources and skilled professionals. 
Additionally, many entities face not only third-party risk, but 
may also need to consider fourth and fifth parties in their 
evaluation of risk.
    While vendors can help provide solutions to address some of 
the resource constraints, third parties inherently create 
additional risk. Any single entity can be a potential threat 
entry point, which may cause a ripple effect across the 
enterprise or industry. Heightened regulatory and market focus 
have increased pressure on financial institutions to account 
for how third-party suppliers and vendors use and protect their 
data and manage sustainable operations, especially for critical 
services.
    Additionally, many financial services companies work with 
Fin Tech and RegTech companies or are looking for efficiency 
and innovation through use of the cloud. These also put further 
focus on third-party vendor cybersecurity risks.
    The private sector is also focused on components of the 
supply chain that could create systemic risk and is working 
with the regulatory community to identify, evaluate, plan and 
exercise cyber response plans. This includes but is not limited 
to the power and utilities sector, payment processors, 
servicers, financial market utilities and infrastructure 
providers. Continued collaboration and focus on these efforts 
will be critical for preparedness.
    Leading practices for companies to enhance their cyber 
capabilities, including consideration for third parties, 
include:

  <bullet> LIdentify their most important assets consisting of 
        critical business processes, systems, infrastructure, 
        data and dependent third parties that are most critical 
        to the financial institutions, including their role in 
        the broader financial services ecosystem.

  <bullet> LProtect their high-value assets and underlying 
        system architecture for enhanced security.

  <bullet> LDetect threats and vulnerabilities to proactively 
        identify threats with better threat intelligence, 
        detection and management capabilities.

  <bullet> LRespond to cyber incidents to rapidly contain the 
        damage, and mobilize the diverse resources needed to 
        minimize impact--including direct costs and business 
        disruption, as well as reputation and brand damage.

  <bullet> LRecover from cyber disruptions to resume normal 
        business operations as quickly as possible.

Q.4. Is verifying that financial institutions have an internal 
cybersecurity audit function or an independent third-party 
assessment sufficient, or should financial regulators develop 
their own view of the cybersecurity posture of supervised 
entities in addition to requiring independent third-party 
assessment?

A.4. Traditionally, the main role of internal audit, which is 
often referred to as the third line of defense in the three 
lines of defense (3LoD)\1\ risk management model described 
below, has been to provide an independent and objective 
assessment of the firm's processes across the first and second 
lines of defense, with the focus on operational effectiveness 
and efficiency as part of the firm's overall risk governance 
approach. As qualified technical resources are limited, 
internal audit groups often turn to co-sourcing arrangements 
with a qualified third party to augment their teams to provide 
technical resources to assess risk and execute audit programs 
to validate controls over applications and technology 
infrastructure, cyber risk governance and risk managements, 
conduct independent penetration testing and vulnerability 
assessments, etc.
---------------------------------------------------------------------------
    \1\ This Includes excerpts from EY's Cyber risk management across 
the lines of defense, EYGM Limited, April 2017.
---------------------------------------------------------------------------
    In cases where a firm has taken the appropriate actions so 
that qualified technical resources are available to support 
their internal audit team, the need for an independent third-
party assessment and/or independent regulatory review would not 
appear to be necessary. Conversely, in cases where a firm does 
not have sufficiently qualified technical resources inhouse and 
has elected not to utilize the services of a qualified third 
party, some form of annual--independent assessment may be 
necessary.

Q.5. Are you and others in the industry seeing an uptick in 
interest from regulators in cyber risk? What issues do 
regulators focus on in their examinations?

A.5. In light of the heightened threat presented by cyber 
risks, regulators globally have stepped up their focus on 
cybersecurity. Each regulator reviews cybersecurity in its own 
way, and takes into consideration its own view of the cyber 
risks in the industry and specific institutions, when 
conducting its reviews.
    Across the course of their ongoing supervisory reviews, 
supervisors increasingly assess a bank's ability to manage 
cyber risk across the 3LoD. The first line operates the 
business, owns the risk and designs and implements operations. 
The second line defines policy statements and the risk 
management framework, provides a credible challenge to the 
first line and is responsible for evaluating risk exposure for 
executive management and the board to consider when 
establishing a risk appetite. The third line of defense, which 
is also commonly referred to as ``internal audit,'' is 
responsible for the independent evaluation of the first and 
second lines.
    EY has found that establishing a 3LoD approach to cyber 
risks is not a trivial task for an organization, but it is 
becoming essential in the cyber world we have entered. 
Financial services firms are still grappling with how to best 
implement the model across their businesses for existing 
nonfinancial risks. Adding cyber risk management as well as 
strong board oversight during the implementation of the 3LoD 
model poses an even greater challenge for organizations.
First line of defense
    A strong first line of cybersecurity defense requires a 
significant effort. Whether in the retail bank, investment 
bank, corporate bank, private bank or any other area, business 
heads will have to perform a thorough examination to determine 
whether the business is doing enough to manage cyber risk. 
Information security groups can no longer apply one-size-fits-
all solutions to the entire enterprise. Instead, each line of 
business must carefully define the cyber risks and exposures it 
faces. Cyber risks need be woven into the fabric of the first 
line's risk and control self-assessment and into fraud, crisis 
management, and resiliency processes.
    The lines of business will need to actively monitor 
existing and future exposures, vulnerabilities, threats and 
risks associated with their activities. In addition to 
leveraging technologies, businesses need to determine the 
impact that cyber risk will have on its clients, operational 
processes and strategies. These new responsibilities require 
significant investment in people and tools, including upgraded 
monitoring and analytic capabilities to provide improved 
assessments of current levels of cyber risk.
Second line of defense
    The independent second-line cyber risk management function 
manages the enterprise cyber risk appetite and risk management 
framework within the context of the overall enterprise risk 
strategy. This group challenges the first line's application of 
the board-approved cyber framework and appetite. Second-line 
risk management plays a critical role in managing cyber risks 
and should not be walled off as a separate risk function. As 
the keeper of a firm's board-approved risk tolerance, it 
determines how to appropriately measure cyber risks, embedding 
quantitative and qualitative (e.g., reputational) thresholds 
for cyber risks into the statement of risk tolerance for the 
firm. Moreover, these clearly established appetite and 
associated thresholds need to cascade down into the operations 
for each line of business.
    Given the relative novelty of applying the 3LoD model to 
cyber risk, most of the first and second lines focus 
appropriately on more effective management of these risks 
rather than the narrower issue of compliance. However, with an 
increasing volume of regulatory guidance and mandatory 
requirements stemming from industry, professional and 
regulatory standards, cyber will increasingly constitute a 
material compliance risk. Accordingly, supervisors should 
assess whether financial institutions integrate cyber risk 
compliance into second-line risk management.
Third line of defense
    Traditionally, the main role of the third line of defense 
has been to provide an independent and objective assessment of 
the firm's process across the first and second lines of 
defense, with the focus on operational effectiveness and 
efficiency as part of the firm's overall risk governance 
approach. Regulators are now focusing on how effective and 
independent a firm's internal audit team is when it comes to 
reviewing the firm's approach to cybersecurity. For example, 
banking regulations focused on cybersecurity often include 
references to the importance of an ``annual independent 
assessment,'' such as those included in Federal Financial 
Institutions Examination Council (FFIEC) and NIST requirements 
and guidelines.
    As a foundation, EY recommends that the internal audit team 
include within its overall audit plan an evaluation of the 
design and operating effectiveness of cyber risk management 
across the first and second lines of defense. Traditionally, 
industry standards, such as the NIST's Cybersecurity Framework 
guidelines have been used as the benchmark for evaluating a 
firm's effectiveness. Going forward, internal audit teams at 
financial institutions may need to create their own framework 
or apply multiple industry frameworks. By doing so, internal 
auditors will maintain greater objectivity in assessing cyber 
risk management effectiveness, eliminating the potential blind 
spots that can result from using a common standard throughout 
all three lines of defense.
    Under the 3LoD model, internal auditors perform procedures 
such as assessments, validation of applications and technology 
infrastructure, evaluations of third-party risks, conduct some 
level of intrusive-based testing, either by themselves or using 
third parties, incorporate cyber into regular audits and have a 
responsibility to stay abreast of cyber threat intelligence.
Board oversight of cyber risk management
    Supervisors should also assess the degree to which boards 
of directors provide effective challenge and oversight of the 
bank's cyber risk management. Boards need to understand the 
maturity of their organizations' approach relative to evolving 
industry and regulatory trends. A cyber risk maturity 
assessment should be broad in nature, considering people, 
process and technology as well as existing and planned 
improvement or remediation activities.
    The view on program maturity needs to be combined with a 
proper assessment of existing threats and vulnerabilities, and 
the evolving threat landscape. Boards should press management 
to quantify cyber risk as much as possible so that quantitative 
statements on the degree of cyber risk are incorporated into 
the firm's risk appetite statement. The cyber risk appetite 
statement should link directly to cyber and technology 
operational thresholds and tolerances. Boards should insist on 
more credible cyber risk reporting, in the context of the 
approved cyber risk appetite. Boards should also determine how 
they evaluate the quality, accuracy and timeliness of cyber 
metrics. Boards should challenge how they oversee cyber risk 
across their own governance structure.
    The board should revisit its strategy for keeping directors 
abreast of cyber threats, trends and the evolving business 
implications. Boards should press management to quantify cyber 
risk as much as possible so that quantitative statements on the 
degree of cyber risk are incorporated into the firm's risk 
appetite statement. The cyber risk appetite statement should 
link directly to cyber and technology operational thresholds 
and tolerances. Aspects of cyber risk management should be 
built into an ongoing training program throughout the year, 
with overview sessions and deep dives on the most relevant 
topics and issues.\2\
---------------------------------------------------------------------------
    \2\ For an example of an effective cyber risk dashboard, see 
Appendix F of the ``Cyber-Risk Oversight: Director's Handbook Series,'' 
National Association of Corporate Directors, 2017.
---------------------------------------------------------------------------
    Ultimately, the board is accountable for requiring that 
management adapts quickly enough to manage this enterprise risk 
more effectively and efficiently, and it is charged with 
providing a credible challenge to management's approach.

Q.6. What do you believe is the appropriate role of the 
financial regulators in assessing the cybersecurity of 
institutions they regulate?

A.6. We see several regulatory roles related to cybersecurity 
including:

  <bullet> LEngaging in public/private sector dialogues and 
        efforts to support sharing intelligence and leading 
        practices

  <bullet> LConsidering how effectively cyber resiliency has 
        been built into an organization's three lines of 
        defense as referenced in my testimony

  <bullet> LConsidering the level of board engagement in cyber 
        risk management

  <bullet> LAdvancing opportunities to seek sources of new 
        talent for both public and private sector needs, as 
        observed during my testimony

Companies that exercise good faith efforts, establish cyber 
risk management frameworks and adopt such leading practices as 
outlined in the previously submitted testimony should benefit, 
not only within the company, but in the eyes of stakeholders, 
regulators and enforcement agencies, especially relative to 
liability and penalty measures.
                                ------                                


RESPONSES TO WRITTEN QUESTIONS OF SENATOR CORTEZ MASTO FROM BOB 
                             SYDOW

Q.1. A year and a half ago, William and Margaret Frederick sold 
their home in Ohio so they could buy a home in Las Vegas, 
Nevada. The couple expected to make a $216,000 profit on the 
sale. But, their real estate agent read a hacked email 
supposedly from William--the fake email had three L's in Bill 
instead of two--and sent the profit to the hacker. William was 
83 and Margaret 77. Someone stole the money they intended to 
live on in retirement.
    Real estate transaction fraud is a problem in Nevada and 
nationwide. Thieves wait for the right time to impersonate a 
bank or realtor and send you different wire transaction 
instructions. Estimates are as much as $400 million a year in 
losses.
    What more can financial institutions do to prevent thieves 
from stealing people's down payments, earnest money and even 
the
entire home payment if someone is buying a home for cash? 
Please identify the best practices for realtors, title agents 
and mortgage brokers?

A.1. Consumer education about common financial fraud methods 
and how to securely communicate their sensitive data should be 
driven as a combined effort by the private sector and public 
entities to foster an ongoing culture of greater awareness. 
Financial institutions can work to implement two-way 
verification of identities on the web, mobile and other virtual 
spaces to gain greater confidence that they are interacting 
with their intended customer and for the customer to have 
confidence they are communicating with their intended 
institution. Additional monitoring controls for higher-risk 
consumers and transactions should be considered, but this 
should be balanced with the need to maintain fluidity and 
velocity of transactions without adding risk to the banks 
themselves for delays or rejected payments. Underpinning all of 
these controls, however, is the growing need for an improved 
form of digital identification for all entities, consumer and 
institutional, that can support enhanced authentication and be 
easily used and verified for online transactions.
    Educating individual business owners about cybersecurity 
and cyber posture is a topic on which the public and private 
sector should work together. EY recognizes the importance of 
better cyber hygiene throughout the ecosystem, and would 
encourage policymakers to consider what levers it has available 
to reach individual business owners.

Q.2. One way to protect consumer's information is to not 
collect it. For example, why should merchants of any sort, 
including doctors, insurance companies and utilities, require 
Social Security Numbers as part of their information or data-
set on their customers? Should we limit Social Security Numbers 
provided to merchants?

A.2. The value of the Social Security Numbers (SSN) as a 
private and unique identifier must be viewed relative to the 
risk that currently exists based upon years of propagating this 
same identifier across multiple systems. In my view, continued 
usage of this same identifier, coupled with the aggregation of 
cybersecurity breaches that have gained access to this 
identifier, diminish its value and instead heightens the risk 
associated with using it. Unique identifiers must be evaluated 
from multiple perspectives before deciding upon their value. 
For example, the use and collection of an identifier that is 
unique to a particular industry segment may be reasonable, if 
its usage across various entities encourages innovation, 
benefits society, limits other risks or provides convenience to 
consumers and furthermore, if the risks associated with using 
the identifier do not outweigh those values or may be 
mitigated. It is the data that is associated with the unique 
identifier that creates the risk and hence there may be ways to 
still achieve value while minimizing risk by limiting those 
data elements about an individual that are associated with any 
identifier.
    In other contexts, there may be better ways than using a 
unique identifier to manage risk. One example is when the 
identifier
is being used solely for the purpose of authenticating 
someone's
identity. There are other ways to achieve this, including 
through encrypted identifiers and multifactor authentication.

Q.3. What other sorts of information should financial 
institutions or others STOP collecting?

A.3. Many companies across industries are required to collect 
SSNs to comply with legal and regulatory requirements. For 
example, financial institutions are required to collect and 
retain SSNs when customers open an account or apply for a 
mortgage. Health insurance companies are also mandated by 
Government to collect SSNs for individuals they insure. In such 
cases, companies cannot voluntarily choose whether or not they 
collect SSNs from their customers.
    When considering policies to change the collection and use 
of SSNs, it is important to understand whether the proposal 
would impact the use of the SSN as an identifier or 
authenticator. SSNs were created to be a unique identifier, and 
organizations continue to use them in this way to connect 
disparate pieces of information about a person. Today, SSNs are 
also widely used as authenticators to verify the identity of a 
person. This is problematic because authenticators are only 
valuable if they remain a secret--which is not the case with 
SSNs after years of massive data breaches have made them widely 
available to criminals on the dark web.
State and International Laws Relating to Cybersecurity
Q.4. What are the pros and cons of a Federal data breach law?

A.4. Because pros and cons can vary for differing stakeholders, 
policymakers in Congress are in the best position to determine 
the path forward that balances the needs of constituents and 
other key stakeholders. EY believes key considerations include 
the potential benefit of harmonization and the need for 
interoperability across jurisdictions, which we address 
elsewhere in this document.

Q.5. How should Federal data breach laws coexist with other 
international laws?

A.5. In EY's view, it is important for U.S. policymakers to 
consider the potential for conflict that could arise across 
jurisdictional differences in laws. EY routinely hears from 
clients how regulatory harmonization at the State, Federal, and 
international levels has the potential to reduce compliance 
costs and free up capital to invest limited financial resources 
available to improve their security posture. Conversely, it 
would add to costs and complexity to have disparate approaches 
that are not interoperable.

Q.6. Firms that fail to secure their data pay substantial 
penalties. Hundreds of hackers go to prison. The woman [Paytsar 
Bkhchadzhyan] who hacked into Paris Hilton's accounts and stole 
her credit card information received a 57-month prison term. 
Taylor Huddleston (26) of Arkansas was sentenced to serve 
nearly 3 years for building and selling a remote access Trojan 
(NanoCore) to hackers.
    Can you give me some examples of fines, penalties and 
sentences for firms and individuals that engaged in cyber 
theft? Are these costs an appropriate deterrent?

A.6. There are various Federal and State Government authorities 
that bring enforcement actions relating to cybercrime. A non-
exhaustive list includes the following. The Federal Trade 
Commission brings actions alleging that companies have engaged 
in unfair or deceptive practices that failed to adequately 
protect consumers' personal data; information on such cases is 
available at www.ftc.gov/datasecurity.
    The U.S. Securities and Exchange Commission (SEC) also 
brings actions alleging account intrusion and failure to 
safeguard customer data, for example, information on such cases 
is available at www.sec.gov/spotliqht/cybersecurity-
enforcement-actions. Because various States have their own data 
protection and breach notification laws, some States have State 
authorities with enforcement authority relating to cybercrime.
    Additionally, there can be criminal sanctions for cyber 
theft. To take one recent example, the U.S. Department of 
Justice (DOJ) announced charges against 36 people from the 
United States and six foreign countries earlier this year 
alleging that they were responsible for hundreds of millions of 
dollars of losses from the acquisition and sale of stolen 
identities and other information. See ``Thirty-six Defendants 
Indicted for Alleged Roles in Transnational Criminal 
Organization Responsible for More than $530 Million in Losses 
from Cybercrimes,'' DOJ Press Release No. 18-145 (Feb. 7, 
2018), available at www.justice.gov/opa/pr/thirty-six-
defendants-indicted-alleged-roles-transnational-organization-
responsible. Notably, although DOJ announced the arrests of 13 
of the people charged, it was uncertain whether the 23 
remaining defendants would ever face trial in the United 
States.
    There are a variety of criminal statutes available to 
Federal prosecutors. See, e.g., ``Prosecuting Computer 
Crimes,'' DOJ OLE Litigation Series, Appendix A, ``Unlawful 
Online Conduct and Applicable Federal Laws,'' available at 
www.justice.gov/criminal/cybercrime/docs/ccmanual.pdf. For 
example, the Computer Fraud and Abuse Act, 18 U.S.C.  1030, 
provides for maximum sentences of 10 years for a first offense 
and 20 years for a second offense. While cybersecurity experts 
generally feel that there is an important role for law 
enforcement to play in apprehending cyber criminals, many 
express the sentiment that these efforts are unduly hampered by 
the length of criminal sentences that are imposed. More often, 
cybersecurity experts tend to realize that bad actors in this 
space are able to operate across the globe, including in places 
that make it difficult for U.S. law enforcement authorities to 
reach them.
    This is not to say that there is no place for criminal and 
regulatory enforcement in the cyber realm. Clearly, there is. 
However, especially given the rapidly changing nature of the 
threat, and the extent to which the threat can originate 
overseas, enforcement will never be sufficient on its own. 
Institutions need to protect themselves and their stakeholders 
because many actors in cybercrime are unlikely to be deterred, 
no matter how robust the penalties. As a result, EY encourages 
the Committee to focus not only on enforcement but also on ways 
to incentivize responsible and effective corporate governance 
and risk management strategies by rewarding good behavior and 
adoption of leading practices.
    As stated in the written testimony EY submitted to the 
Committee, not only do threats evolve day-by-day, but those who 
want to do harm are not constrained by regulatory, liability or 
jurisdictional issues, let alone ethics. While no one can 
guarantee that any or all attacks can be prevented, the market 
is developing best
practices and ways to mitigate risk and impact. Companies that 
exercise good faith efforts, establish cyber risk management 
frameworks and adopt such best practices as outlined in this 
testimony should benefit, not only within the company, but in 
the eyes of stakeholders, regulators and enforcement agencies, 
especially relative to liability and penalty measures.

Q.7. Seventy-seven percent of cyber attacks come from the 
outside. Yet sometimes, figuring out who the hackers were is 
hard to figure out. Hackers can spoof evidence. They can embed 
other hackers' tools.
    How big of a problem is figuring out attribution for hacks? 
Are there ways we can enhance information sharing between 
industry and the Federal Government to enable more rapid 
detection and response to cyber attacks?

A.7. Attribution can be incredibly difficult depending on the 
sophistication of the adversary and as a result of the 
transient nature of digital evidence. An adept adversary 
understands forensics and cyber investigative methodology and 
will take steps to minimize their digital fingerprints if they 
choose to obscure attribution. Additionally, attribution often 
requires correlation between different investigations or 
sources of information. Therefore, many organizations that do 
not routinely respond to breaches lack the data to make 
correlations and assessments regarding attribution. Finally, 
some key data points that are helpful in providing attribution 
are maintained by private or foreign entities that may be 
unwilling to provide this critical information.
    There are a number of initiatives currently underway to 
promote the sharing of information between the private and 
public sector including:

  <bullet> LThe Department of Homeland Security's Cyber 
        Information Sharing and Collaboration Program (CISCP)

  <bullet> LThe Cybersecurity Information Sharing Act (CISA) 
        program, and related Automated Indicator Sharing 
        Initiative

  <bullet> LThe Federal Bureau of Investigation's InfraGard 
        program

  <bullet> LThe U.S. Department of Energy's Cybersecurity Risk 
        Information Sharing Program for the electric utility 
        sector

  <bullet> LSector-specific as well as regional Information 
        Sharing and Analysis Centers (ISACs)

These initiatives are each having a positive effect on 
marketplace efforts to combat cyber attacks, but there is 
always more that can be done, including: (1) providing enhanced 
liability protection for private sector companies when good-
faith efforts are made when sharing information, (2) increasing 
the speed with which information is disseminated, and (3) 
increasing the speed of security clearance investigations 
(needed before access can be provided to certain protected 
information).

Q.8. What tools or resources would make it easier for financial 
institutions to correctly attribute cyber-attacks?

A.8. Attribution can be incredibly difficult depending on the 
sophistication of the adversary and the transient nature of 
digital evidence. The rapidly escalating volume, velocity and 
sophistication of cybersecurity attacks on the financial 
services ecosystem continues to present a significant challenge 
to financial institutions in safeguarding their sensitive data. 
Financial institutions should continue to enhance their cyber 
capabilities--people, process and technology by identifying 
their high-value assets; securing their high-value assets and 
underlying architecture; proactively detecting threats and 
vulnerabilities; rapidly responding to cyber incidents to 
contain the damage; and recovering from cyber disruptions to 
resume normal business operations as quickly as possible.
    Additionally, financial institutions should explore the 
possibility of sharing cyber threat information in a 
confidential, timely manner with their peers and appropriate 
external stakeholders and also collaborating with them to 
protect the financial system ecosystem.

Q.9. In 2015, French-language TV station, TV5Monde was 
subjected to a significant cyber-attack which disrupted its 
broadcast for several hours by Fancy Bear. These are the same 
Russian government and military hackers that hacked the 
Democratic National Committee. Multiple television channels 
went dark. Social media channels run by the broadcasters began 
to spew ISIS propaganda. The attack was the work of Russian 
hackers which pretended to be ISIS. Russian government hackers 
also attacked the World Anti-Doping Agency, the power grid in 
Ukraine and the French electorate with another document dump.
    How significant is the threat to private businesses--from 
hostile foreign governments or terrorist organizations?

A.9. The threat to the private sector from attacks waged by 
hostile foreign actors is extremely significant. There have 
been a number of public reports of instances where these actors 
have demonstrated the ability and intent to maliciously attack 
private companies with the goal of stealing intellectual 
property, disrupting operations (e.g., via ransomware attacks), 
conducting industrial espionage and other nefarious purposes. 
These attacks directly affect specific companies and have a 
ripple effect on the U.S. economy as a whole, potentially 
undermining the public's trust and the backbone of our economy.

Q.10. Some of the lessons from that attack was documenting IT 
processes, restricting access to IT processes, and keeping 
communications separate from incident responses.
    What should businesses do now to prepare for a possible 
attack in the future?

A.10. A growing number of companies experience cyber events as 
part of the routine course of business and are well versed in 
responding. Incident management, continuity and crisis 
management programs can support how a company responds to an 
event. For significant cyber events, many of EY's clients are 
focused on the following areas:

  1. LCommunications and disclosures: timely and accurate 
        reporting, notification and disclosure is an 
        increasingly critical concern following a cyber breach 
        as it must be factual and meet requirements under 
        Federal and State law as well as other regulatory 
        requirements and guidelines, including the most recent 
        SEC guidance updates and, where applicable, various 
        foreign requirements such as the new European Union 
        (EU) General Data Protection Regulation (GDPR).

  2. LSimulation exercises: firms have been practicing 
        technical ``war games'' and conducting trainings to 
        prepare technical resources for an event. EY is seeing 
        a trend where firms are extending these exercises 
        further to include executive management and in some 
        cases members of the board to practice and refine 
        response mechanisms.

  3. LIndustry efforts: financial services firms are engaging 
        in various industry exercises, collaboration efforts 
        and information sharing programs to help address the 
        potential client impacts as well as possible systemic 
        impacts that could occur.

However, it should be noted that there is no silver bullet. No 
organization, large or small--public or private--is immune to 
the cyber threat. As noted in the prepared remarks delivered to 
the Senate Banking Committee, EY's clients face three 
significant challenges:

  1. LEmerging interconnected technologies drive fundamental 
        transformations and create complex third-party 
        ecosystems

  2. LThe volume, velocity and precision of attacks

  3. LA shortage of cybersecurity resources and skilled 
        professionals

    EY works with clients across all sectors, and many should 
be commended for their efforts. Financial services firms, 
especially the largest banks, are considered best-in-class not 
only in terms of organization and investment, but also for 
leading engagement with stakeholders across the ecosystem. The 
industry is not without challenges, and there is variation 
among firms. For example, while the largest banks have 
considerable resources dedicated to cybersecurity risk 
management, smaller entities often struggle with costs and 
access to a competitive talent pool. That is not to say these 
organizations are not committed to cyber risk management or do 
not take the issue seriously. Cyber breaches and associated 
losses are not good for business, and when a company's business 
model depends on customer trust, a cyber event can cause long-
term damage to brand and reputation.
    Large banks are accustomed to higher levels of regulatory 
scrutiny, and their third-party risk management programs tend 
to be more mature and robust--but challenges remain. Today, 
financial institutions deal with third-, fourth- and fifth-
party risk. In addition to vendor risk, most institutions 
struggle to secure resources and talent. Experienced cyber 
professionals are in high demand. Often, small financial 
services institutions rely on third-party providers to meet 
those needs. There is no one-size-fits-all solution, but there 
are three areas where EY believes risk can be mitigated: 
corporate governance and risk management, the American 
Institute of Certified Public Accountants' (AICPA) 
Cybersecurity Risk Management Reporting Framework and policy 
solutions.
    Ultimately, the board is responsible for governing a 
company's risk appetite and providing a credible challenge to 
management. By doing so, boards help protect investors and 
enhance the company's value and performance. Banks use a 
``three-lines-of-defense'' risk management model (described 
later in this document). The larger ones are adopting this 
model for cyber. EY considers this a leading practice. 
Increasingly, regulators, investors and others want financial 
institutions to build cyber resiliency strategies into the 
three lines of defense.
    Another challenge is understanding and communicating about 
a cyber program's efficacy. While the National Institute of 
Standards and Technology (NIST) and others have developed 
implementation guidance, there had been no means to evaluate 
and report on program effectiveness. The distinction is subtle, 
but significant. In response, the AICPA recently developed the 
Cybersecurity Risk Management Evaluation and Reporting 
Framework. This is voluntary and can provide stakeholders with 
reasonable assurance that the identification, mitigation and 
response controls are in place and operating effectively.
    No framework can guarantee against a breach, but the AICPA 
Framework can offer an independent validated understanding of a 
company's cybersecurity systems, processes and controls. While 
the AICPA's model is relatively new, voluntary market adoption 
appears to be gaining momentum. Unfortunately, there is no 
single legislative, regulatory or market solution that can 
guarantee against a cyber event. Bad actors are not constrained 
by regulatory, liability or jurisdictional issues, let alone 
ethics.
    Policymakers and the business community should work 
together to foster collaboration and improve intelligence 
sharing. The private sector needs flexible and harmonized 
policy solutions that recognize the dynamic challenge of 
cybersecurity and clarify conflicting directives. There needs 
to be a balance between the need for compliance with the need 
to manage cyber risk and protect consumers.
    EY believes companies that engage in good faith efforts, 
establish enterprise-wide cyber risk management frameworks and 
adopt leading practices should be recognized, especially 
relative to liability and penalty measures.
    Finally, EY encourages Congress to support modernization of 
the Government's cyber posture, to focus on developing 
solutions to to address cyber workforce shortages, and to 
educate the public and help the country as a whole improve its 
cyber hygiene.

              Additional Material Supplied for the Record
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                           
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
